<html>
<title> - ASSESSMENT OF THE NATIONAL SCIENCE BOARD'S ACTION PLAN FOR STEM EDUCATION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                       ASSESSMENT OF THE NATIONAL 
                      SCIENCE BOARD'S ACTION PLAN 
                           FOR STEM EDUCATION 

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON RESEARCH AND
                           SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 10, 2007

                               __________

                           Serial No. 110-63

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.house.gov/science

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE

38-056 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001

























                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
LAURA RICHARDSON, California         TOM FEENEY, Florida
PAUL KANJORSKI, Pennsylvania         RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

             Subcommittee on Research and Science Education

                 HON. BRIAN BAIRD, Washington, Chairman
EDDIE BERNICE JOHNSON, Texas         VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            ROSCOE G. BARTLETT, Maryland
JERRY MCNERNEY, California           RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               DAVID G. REICHERT, Washington
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
BARON P. HILL, Indiana                 
BART GORDON, Tennessee               RALPH M. HALL, Texas
                 JIM WILSON Subcommittee Staff Director
          DAHLIA SOKOLOV Democratic Professional Staff Member
           MELE WILLIAMS Republican Professional Staff Member
                 MEGHAN HOUSEWRIGHT Research Assistant
























                            C O N T E N T S

                            October 10, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Baird, Chairman, Subcommittee 
  on Research and Science Education, Committee on Science and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................     9

Statement by Representative Vernon J. Ehlers, Ranking Minority 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    10
    Written Statement............................................    11

                               Witnesses:

Dr. Steven C. Beering, Chairman, National Science Board
    Oral Statement...............................................    12
    Written Statement............................................    14
    Biography....................................................    18

Ms. Judy A. Jeffrey, Director, Iowa Department of Education, 
  Representing the Council of Chief State School Officers
    Oral Statement...............................................    19
    Written Statement............................................    21
    Biography....................................................    22

Dr. Francis (Skip) Fennell, President, National Council of 
  Teachers of Mathematics
    Oral Statement...............................................    23
    Written Statement............................................    24
    Biography....................................................    27

Ms. Chrisanne L. Gayl, Director of Federal Programs, National 
  School Boards Association
    Oral Statement...............................................    27
    Written Statement............................................    29
    Biography....................................................    31

Dr. Robert J. Semper, Executive Associate Director, The 
  Exploratorium, Representing the Association of Science and 
  Technology Centers
    Oral Statement...............................................    32
    Written Statement............................................    34
    Biography....................................................    38

Ms. Susan L. Traiman, Director, Education and Workforce Policy, 
  Business Roundtable
    Oral Statement...............................................    38
    Written Statement............................................    40
    Biography....................................................    43

Discussion.......................................................    43

              Appendix: Answers to Post-Hearing Questions

Dr. Steven C. Beering, Chairman, National Science Board..........    62

Ms. Judy A. Jeffrey, Director, Iowa Department of Education, 
  Representing the Council of Chief State School Officers........    65

Dr. Francis (Skip) Fennell, President, National Council of 
  Teachers of Mathematics........................................    68

Ms. Chrisanne L. Gayl, Director of Federal Programs, National 
  School Boards Association......................................    69

Dr. Robert J. Semper, Executive Associate Director, The 
  Exploratorium, Representing the Association of Science and 
  Technology Centers.............................................    71

Ms. Susan L. Traiman, Director, Education and Workforce Policy, 
  Business Roundtable............................................    72


    ASSESSMENT OF THE NATIONAL SCIENCE BOARD'S ACTION PLAN FOR STEM 
                               EDUCATION

                              ----------                              


                      WEDNESDAY, OCTOBER 10, 2007

                  House of Representatives,
    Subcommittee on Research and Science Education,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:08 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Baird [Chairman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                            hearing charter

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                       Assessment of the National

                      Science Board's Action Plan

                           for STEM Education

                      wednesday, october 10, 2007
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose

    On Wednesday, October 10, 2007, the Research and Science Education 
Subcommittee will hold a hearing to receive testimony related to a 
proposal from the National Science Board (NSB): ``A National Action 
Plan for Addressing the Critical Needs of the U.S. Science, Technology, 
Engineering, and Mathematics Education System.'' This plan, which was 
released by the NSB on October 3, proposes a series of steps that the 
Board believes will bring greater coherence to the Nation's science, 
technology, engineering and mathematics (STEM) education system and 
ensure that students are taught by highly effective STEM teachers.

2. Witnesses

Dr. Steven Beering, Chairman, National Science Board.

Ms. Judy A. Jeffrey, Director, Iowa Department of Education and 
Representing the Council of Chief State School Officers.

Dr. Francis (Skip) Fennell, President, National Council of Teachers of 
Mathematics and Professor of Education at McDaniel College.

Ms. Chrisanne Gayl, Director of Federal Programs, National School 
Boards Association.

Dr. Robert Semper, Executive Associate Director, The Exploratorium and 
Representing the Association of Science-Technology Centers.

Ms. Susan L. Traiman, Director, Education and Workforce Policy Business 
Roundtable.

3. Overarching Questions

        <bullet>  Does the NSB Action Plan address the key issues for 
        improving STEM education: effective coordination of STEM 
        education reform activities, nationally applied STEM content 
        guidelines, horizontal and vertical alignment and coherence of 
        STEM education, and populating classrooms with well qualified 
        and highly effective STEM teachers? What are the principal 
        barriers to achieving the recommended changes to the STEM 
        education system?

        <bullet>  Is the proposed National STEM Education Council 
        needed in order to implement the NSB's recommendations; can it 
        be made to work as envisioned; will the principal stakeholders, 
        who must be engaged in order for it to function, embrace the 
        concept; and can it become self-sustaining?

        <bullet>  What are the key issues in attracting STEM majors to 
        teaching careers; educating them to be effective teachers; and 
        retaining them in these careers?

        <bullet>  What is the federal role in carrying out the 
        recommendations of the NSB Action Plan?

4. Brief Overview

        <bullet>  A consensus now exists that improving STEM education 
        throughout the Nation is a necessary, if not sufficient, 
        condition for preserving our capacity for innovation and 
        discovery and for ensuring U.S. economic strength and 
        competitiveness in the international marketplace of the 21st 
        century. The National Academies Rising Above the Gathering 
        Storm report placed a major emphasis on the need to improve 
        STEM education and made its top priority increasing the number 
        of highly qualified STEM teachers. This recommendation was 
        embraced by the COMPETES bill developed by the Committee, which 
        was recently enacted.

        <bullet>  In the same period that the Gathering Storm report 
        was being developed, the NSB initiated a process to explore how 
        to improve STEM education throughout the Nation. As part of 
        this effort, the Board established a STEM education commission 
        to advise it on how to accomplish this goal. The Action Plan 
        that is the subject of this hearing grew out of these 
        activities.

        <bullet>  The NSB Action Plan focuses on coordinating what, 
        when, and to whom STEM subjects are taught among states 
        (horizontally) and across grade levels (vertically) and on 
        ensuring students are taught by highly effective STEM teachers.

        <bullet>  At present, there are no consistent STEM content 
        standards in use among the states and no consistency in the 
        sequence in which STEM courses are taught. In a highly mobile 
        society, this causes students who move from one state to 
        another often to miss exposure to important concepts which they 
        may not have a later opportunity to master. No formal 
        mechanisms now exist to foster coordination regarding content 
        and course sequence among states. Vertical integration of 
        course sequence and content at different grade levels within 
        states is beginning to be addressed through P-16 Councils that 
        several states have initiated.

        <bullet>  A chronic shortage of highly qualified STEM teachers 
        is a major impediment to improved student performance in STEM 
        subjects. A high proportion of STEM teachers have neither an 
        undergraduate major nor certificate to teach STEM subjects. 
        There is a lack of uniformity and rigor in the requirements for 
        certification of STEM teachers. Individuals with an interest 
        and capability to pursue STEM degrees have many opportunities 
        for careers in professions offering higher salaries and better 
        working conditions.

        <bullet>  A central recommendation of the NSB report is to 
        establish an independent, non-federal, congressionally 
        chartered National Council for STEM Education. This Council, 
        which would have representation from all the major public and 
        private stakeholder groups, would coordinate and facilitate 
        STEM education initiatives across the Nation. The NSB sees the 
        Council as having an important role in facilitating a strategy 
        to define voluntary STEM content guidelines, in developing 
        consensus-based metrics for assessing student performance, in 
        serving as a forum on best practices in STEM teaching and 
        learning, in assisting the states in creating new and 
        strengthening existing P-16 councils, in developing strategies 
        to overcome barriers to increasing the compensation for STEM 
        teachers, in coordinating and disseminating information on 
        models to attract and support talented students in pursuing 
        STEM teaching careers, and in fostering the development of 
        national STEM teacher certification guidelines.

5. NSB Action Plan

    Beginning in 2005 the NSB held a series of hearings in different 
regions of the U.S. to gather a range of views about how to improve 
STEM education. This led to the Board convening a national commission 
on STEM education to advise it on specific actions that could be taken 
to implement the many recommendations of previous reports, panels, task 
forces, and commissions that have called for major reforms of STEM 
education. The NSB commission presented their findings and 
recommendations to the Board in March 2007 (included as an appendix to 
the NSB Action Plan).
    The NSB then prepared its STEM education Action Plan, released it 
for public comment in August, and then released the final version last 
week. The executive summary of the report, as released for public 
comment, is in the appendix to this memo, and the full report is 
available at http://www.nsf.gov/nsb/edu<INF>-</INF>com/
draft<INF>-</INF>stem<INF>-</INF>report.pdf

6. Questions for the Witnesses

    In the invitation letter for the hearing, Dr. Beering was asked to 
provide an overview of the NSB's recommendations and the findings that 
led to these recommendations. He was also asked to describe the process 
used by the Board that led to the priorities reflected in the Action 
Plan, including the degree and nature of consultation with STEM 
education leaders throughout the Nation, and a description of the 
reaction the Board received to the recommendations of the Action Plan 
after it was released for public comment.
    The other witnesses, who represent various stakeholder communities 
engaged in STEM education improvement, were asked to give their views 
on the NSB recommendations and to respond to the following questions:

        <bullet>  Does the NSB Action Plan address what you see as the 
        key issues for improving STEM education? Are there specific 
        actions or policies that you believe are important to 
        improvement of STEM education that are not included? What are 
        the principal barriers to achieving the recommended changes to 
        the STEM education system?

        <bullet>  Is the proposed national STEM education council 
        needed in order to implement the NSB's recommendations; can it 
        be made to work as envisioned; and can it become self-
        sustaining? Do you support establishing this council? Do you 
        have recommendations for changing the proposed structure or 
        functions of the council? Furthermore, what role do you 
        envision for the council in defining the recommended ``national 
        content guidelines''?

        <bullet>  What is the appropriate federal role in carrying out 
        the recommendations of the NSB Action Plan?

APPENDIX

                               NSB-07-114
                            October 1, 2007

 A NATIONAL ACTION PLAN FOR ADDRESSING THE CRITICAL NEEDS OF THE U.S. 
   SCIENCE, TECHNOLOGY, ENGINEERING, AND MATHEMATICS EDUCATION SYSTEM

                           EXECUTIVE SUMMARY

    The United States possesses the most innovative, technologically 
capable economy in the world, and yet its science, technology, 
engineering, and mathematics (STEM) education system is failing to 
ensure that all American students receive the skills and knowledge 
required for success in the 21st century workforce. The Nation faces 
two central challenges to constructing a strong, coordinated STEM 
education system:

        <bullet>  Ensuring coherence in STEM learning, and

        <bullet>  Ensuring an adequate supply of well-prepared and 
        highly effective STEM teachers.

    In order to direct attention to pressing issues and concerns in 
STEM education and to coordinate and enhance STEM education across 
local, State, and federal programs, the National Science Board (Board) 
recommends the following:

        <bullet>  The U.S. Congress should pass and the President 
        should sign into law an act chartering a new, independent, non-
        federal National Council for STEM Education to coordinate and 
        facilitate STEM programs and initiatives throughout the Nation, 
        as well as to inform policy-makers and the public on the state 
        of STEM education in the United States.

        <bullet>  The President's Office of Science and Technology 
        Policy should create a standing Committee on STEM Education 
        within the National Science and Technology Council with the 
        responsibility to coordinate all federal STEM education 
        programs.

        <bullet>  The Department of Education should create a new 
        Assistant Secretary of Education position charged with 
        coordinating the Department's efforts in STEM education and 
        interacting with stakeholders outside the Department.

        <bullet>  The National Science Foundation should lead an effort 
        to create a national roadmap to improve pre-kindergarten to 
        college and beyond (P-16/P-20) STEM education, drawing on its 
        national standing in the science and engineering communities 
        and its expertise in science and engineering research and 
        education.

    In recognition of the lead role of local and State jurisdictions in 
the Nation's P-12 education system, the Board recommends that all 
stakeholders work together, using the National Council for STEM 
Education as the focal point, to provide horizontal coordination of 
STEM education among states by:

        <bullet>  Facilitating a strategy to define national STEM 
        content guidelines that would outline the essential knowledge 
        and skills needed at each grade level;

        <bullet>  Developing metrics to assess student performance that 
        are aligned with national content guidelines;

        <bullet>  Ensuring that assessments under No Child Left Behind 
        promote STEM learning; and

        <bullet>  Providing a forum to share and disseminate 
        information on best practices in STEM teaching and learning.

    The Board also recommends that all stakeholders promote vertical 
alignment of STEM education across grade levels--from pre-K through the 
first years of higher education by:

        <bullet>  Improving the linkage between high school and higher 
        education and/or the workforce; and

        <bullet>  Creating or strengthening STEM education-focused P-16 
        or P-20 councils in each state; and

        <bullet>  Encouraging alignment of STEM education content 
        throughout the P-12 education system.

    Finally, the Board recommends actions that ensure students are 
taught by well-qualified and highly effective STEM teachers. These 
include strategies for increasing the numbers of such teachers and 
improving the quality of their preparation by:

        <bullet>  Developing strategies for compensating STEM teachers 
        at market rates;

        <bullet>  Providing resources for the preparation of future 
        STEM teachers;

        <bullet>  Increasing STEM teacher mobility between districts by 
        creating national STEM teacher certification standards; and

        <bullet>  Preparing STEM teachers to teach STEM content 
        effectively.

    This Action Plan lays out a structure that will allow stakeholders 
from local, State, and Federal governments, as well as non-governmental 
STEM education stakeholder groups, to work together to coordinate and 
enhance the Nation's ability to produce a numerate and scientifically 
and technologically literate society and to increase and improve the 
current STEM education workforce. Strategies for producing the next 
generation of innovators are not explicitly addressed in this Action 
Plan and will require subsequent study. A coherent system of STEM 
education is essential to the Nation's economy and well-being.
    Chairman Baird. I call to order this hearing to review the 
Action Plan for improving Science, Technology, Engineering, and 
Mathematics, or STEM education, that was recently released by 
the National Science Board. I welcome this opportunity to enter 
into a discussion with our panel of witnesses on the steps 
necessary to insure that American students receive the 
education in STEM fields that they will all need to live 
satisfying and productive lives in the increasingly 
technological society of the 21st century and that a subset of 
our students will need in preparation for becoming future 
scientists and engineers and, hopefully, teachers as well.
    There is a convergence of views by Congress, the 
Administration, and business and industry that STEM education 
improvement is a key factor for ensuring the Nation's future 
well being and economic competitiveness. The COMPETES Act, 
which was signed into law this summer, includes many provisions 
aimed at addressing shortcomings in STEM education that were 
highlighted in the Congressionally-requested and widely 
acclaimed report from the National Academies, the so called 
``Rising Above the Gathering Storm'' report.
    The National Science Board has now come forward with a set 
of recommendations that are intended to make system-wide 
changes to improve STEM education throughout the Nation. The 
Board's recommendations fall into two principal areas: ensuring 
greater coherence in the Nation's STEM education system and 
ensuring that all students are taught by highly-qualified STEM 
teachers.
    Educating more highly-qualified STEM teachers and enhancing 
the content knowledge and teaching skills of existing STEM 
teachers was the top recommendation of the ``Gathering Storm'' 
report. This recommendation was in turn the basis for the 
teacher education and professional development provision in the 
COMPETES legislation. The National Science Board now goes 
further by suggesting the need for policies to allow for 
increased teacher compensation and for development of more 
uniform teacher certification standards across the states.
    In addition, the Board suggests specific actions that are 
needed to bring about greater coherence in the STEM education 
system, something Dr. Ehlers and I are particularly interested 
in. These recommendations include, for example, consistent 
content standards across states, uniform sequencing of courses 
from grade to grade across school systems and states, and 
improved linkage between the course content for different grade 
levels.
    Toda we will explore these proposals with representatives 
of various stakeholders involved in STEM education. This is 
appropriate because any changes to the STEM education system 
must involve active participation by many players. After all, 
there are 14,000 school districts in the United States, and any 
change to STEM education content and sequence, for example, 
would require developing and implementing a national strategy.
    The Board makes a specific recommendation for implementing 
a national coordination process based on the creation of a 
Congressionally-charted, independent council with a wide-
ranging membership. I hope to hear from our witnesses their 
views on whether this is a necessary and workable mechanism.
    Finally, I would like to thank the National Science Board 
for its strong reaffirmation in the report that STEM education 
is a core mission of the National Science Foundation. As the 
Board and this committee are well aware, STEM education has 
been a major component of NSF's activities since the agency's 
creation nearly 60 years ago, and the foundation has compiled a 
widely-acknowledged record of accomplishment over those years.
    I strongly endorse the Board's direction to NSF to develop 
a roadmap for overall STEM education activities, including 
those funded through the science directorates. This is 
consistent with the requirement for a STEM Education plan in 
the recent NSF reauthorization legislation. The Committee will 
be watching with interest as this planning process unfolds.
    I want to thank all our witnesses for their attendance this 
morning, and I look forward to our discussion.
    I now recognize my friend, the Ranking Member of the 
Subcommittee, Dr. Vern Ehlers, for any opening remarks he may 
care to make.
    [The prepared statement of Chairman Baird follows:]
               Prepared Statement of Chairman Brian Baird
    I now call to order this hearing to review the Action Plan for 
improving science, technology, engineering, and mathematics--or STEM--
education that was recently released by the National Science Board. I 
welcome this opportunity to enter into a discussion with our panel of 
witnesses on the steps that are necessary to ensure that American 
students receive the education in STEM fields that they will all need 
to live satisfying and productive lives in the increasingly 
technological society of the 21st century and that a subset of them 
will need in preparation for becoming future scientists and engineers.
    There is a convergence of the views of Congress, the 
Administration, and business and industry that STEM education 
improvement is a key factor for ensuring the Nation's future well being 
and economic competitiveness. The COMPETES Act which was signed into 
law this summer includes many provisions aimed at addressing 
shortcomings in STEM education that were highlighted in the 
congressionally requested and widely acclaimed report from the National 
Academies, Rising Above the Gathering Storm.
    The National Science Board has now come forward with a set of 
recommendations that are intended to make system-wide changes to 
improve STEM education throughout the Nation. The Board's 
recommendations fall into two principal areas: ensuring greater 
coherence in the Nation's STEM education system and ensuring that all 
students are taught by highly qualified STEM teachers.
    Educating more highly qualified STEM teachers and enhancing the 
content knowledge and teaching skills of existing STEM teachers was the 
top recommendation of the Gathering Storm report. This recommendation 
was in turn the basis for the teacher education and professional 
development provisions in the COMPETES legislation. The National 
Science Board goes further by suggesting the need for policies to allow 
for increased teacher compensation and for development of more uniform 
teacher certification standards across the states.
    In addition, the Board suggests specific actions that are needed to 
bring about greater coherence in the STEM education system. These 
include, for example, consistent content standards across states, 
uniform sequencing of courses from grade to grade across school systems 
and states, and improved linkage between the course content for 
different grade levels.
    Today we will explore these proposals with representatives of 
various stakeholders involved in STEM education. This is appropriate 
because any changes to the STEM education system must involve active 
participation by many players. After all, there are 14,000 school 
districts in the U.S., and any change to STEM education content and 
sequence, for example, would require developing and implementing a 
national strategy.
    The Board makes a specific recommendation for implementing a 
national coordination process based on the creation of a 
congressionally chartered, independent council with a wide ranging 
membership. I hope to hear from our witnesses their views on whether 
this is a necessary and workable mechanism.
    Finally, I would like to thank the National Science Board for its 
strong reaffirmation in the report that STEM education is a core 
mission of NSF. As the Board and this committee are well aware, STEM 
education has been a major component of NSF's activities since the 
agency's creation nearly 60 years ago, and the Foundation has compiled 
a widely acknowledged record of accomplishment over those years.
    I strongly endorse the Board's direction to NSF to develop a 
roadmap for its overall STEM education activities, including those 
funded through the science directorates. This is consistent with the 
requirement for a STEM education plan in the recent NSF reauthorization 
legislation. The Committee will be watching with interest as this 
planning process unfolds.
    I want to thank all of our witnesses for their attendance this 
morning, and I look forward to our discussion on this important topic.

    Mr. Ehlers. Thank you, Mr. Chairman. It is a pleasure to be 
here. Thank you for calling this hearing on my, one of my 
favorite topics.
    Today's hearing will explore the recommendation of the 
National Science Board's recently-released report, ``A National 
Action Plan for Addressing the Critical Needs of the U.S. 
Science, Technology, Engineering, and Mathematics Education 
System.'' That gives a very clear description of what we are 
talking about here, and it is an extremely important issue.
    I understand that the report had its genesis as the Board 
was preparing the 2006, Science and Technology Indicators. The 
statistics on the state of science and engineering spurred the 
Board to create the commission to further explore the startling 
data on U.S. science and engineering education. I applaud the 
effort. This is an area I have been working in for many, many 
years, and this effort has resulted in the report before us.
    The report has highlighted two grand challenges: 
coordination of STEM education efforts and improving teacher 
preparation. Both are extremely important. As the Academic 
Competitive Council report revealed, there are many federal 
STEM education efforts, but they suffer from a lack of both 
evaluation and coordination. Improving coordination is 
challenging, even just within the Federal Government, because 
each individual program has its merits. Expanding coordination 
of STEM education efforts to all levels is an incredible task 
that requires a ``Sputnik-like'' moment to unite everyone 
around a common goal.
    Several public opinion reports have recently highlighted 
data showing that parents are not convinced that their kids 
must be skilled in math and science to survive in today's 
economy. Until we have that buy-in at the grassroots level, it 
will be hard for attempts at coordination to be sustained and 
successful.
    A recent survey I believe highlights part of the problem 
when most parents replied that they thought math and science 
education in the United States should be improved, however, 
something like 80 or 90 percent believe that, but 70 percent 
thought that their kids' math and science program was 
absolutely fine. So once again there is a disconnect.
    I am pleased to see that the Board has also recommended the 
establishment of national content guidelines, and I am 
heartened that the Washington Post recently reported that 
superintendents for Fairfax County and Montgomery County in two 
different states, Virginia and Maryland, believe that in order 
to properly assess student achievement national content 
standards are needed. I have strongly supported national 
voluntary guidelines to help ensure that our mobile population 
receives a quality education, even if they change schools 
several times during their K-12 education. I emphasize the 
word, voluntary, because as you all know there is a strong 
feeling in the United States against mandatory federal 
standards for elementary and secondary education.
    But I have introduced H.R. 325, the SPEAK Act, which would 
provide incentives for states to adopt voluntary standards in 
math and science. Co-sponsor on that is Senator Dodd. I know 
that this idea is controversial and look forward to learning 
from our witnesses about their views on this issue.
    I trust this hearing will help Congress learn about the 
best ways we can advance the recommendations presented in the 
Board's report, and I thank our witnesses for being here today, 
and I especially thank those of you who have worked so hard and 
so long on this.
    With that I yield back.
    [The prepared statement of Mr. Ehlers follows:]
         Prepared Statement of Representative Vernon J. Ehlers
    Today's hearing will explore the recommendations of the National 
Science Board's recently-released report, ``A National Action Plan for 
Addressing the Critical Needs of the U.S. Science, Technology, 
Engineering, and Mathematics Education System.'' I understand that the 
report had its genesis as the Board was preparing the 2006 Science and 
Technology Indicators. The statistics on the state of science and 
engineering spurred the Board to create a Commission to further explore 
the startling data on U.S. science and engineering education. I applaud 
the effort, which has resulted in the report before us.
    The report has highlighted two grand challenges: coordination of 
STEM education efforts and improving teacher preparation. As the 
Academic Competitive Council report revealed, there are many federal 
STEM education efforts, but they suffer from a lack of both evaluation 
and coordination. Improving coordination is challenging, even just 
within the Federal Government, because each individual program has its 
merits. Expanding coordination of STEM education efforts to all levels 
is an incredible task that requires a ``Sputnik-like'' moment to unite 
everyone around a common goal. Several public opinion reports have 
recently highlighted data showing that parents are not convinced that 
their kids must be skilled in math and science to survive in today's 
economy. Until we have that buy-in at the grassroots level, it will be 
hard for attempts at coordination to be sustained and successful.
    I am pleased to see that the Board has also recommended the 
establishment of national content guidelines, and heartened that the 
Washington Post recently reported that superintendents for Fairfax 
County (VA) and Montgomery County (MD) believe that in order to 
properly assess student achievement, national content standards are 
needed. I have strongly supported national voluntary guidelines to help 
ensure that our mobile population receives a quality education, even if 
they change schools several times during their K-12 education. 
Consequently, I have introduced H.R. 325, the SPEAK Act, which would 
provide incentives for states to adopt voluntary standards in math and 
science. I know that this idea is controversial and look forward to 
learning from our witnesses about their views on this issue.
    I trust this hearing will help Congress learn about the best ways 
we can advance the recommendations presented in the Board's report and 
I thank our witnesses for being here today.

    Chairman Baird. Thank you, Dr. Ehlers. If there are other 
Members who wish to submit additional opening statements, those 
will be added to the record at this point.
    At this point I would like to introduce our witnesses very 
briefly.
    Dr. Steven Beering is the Chairman of the National Science 
Board. Welcome, Dr. Beering.
    Ms. Judy Jeffrey is the Director of the Iowa Department of 
Education, and she is here representing the Council of Chief 
State School Officers. Ms. Jeffrey.
    Dr. Francis Skip Fennell is the President of the National 
Council for Teachers of Mathematics and a Professor of 
Education at McDaniel College in Westminster, Maryland. Doctor.
    Ms. Chrisanne Gayl is the Director of Federal Programs for 
the National School Boards Association.
    Dr. Robert Semper is the Executive Associate Director of 
the Exploratorium in San Francisco, and he is here today 
representing the Association of Science and Technology Centers.
    And finally, Ms. Susan Traiman is the Director of Education 
and Workforce Policy for the Business Roundtable.
    As our witnesses should know, spoken testimony is limited 
to five minutes. You will see on the desk there there is a 
little light box. If it starts getting yellow and it turns red, 
you have about five seconds to wrap up or a trap door 
disappears beneath your seat, and you are gone for a long time 
to come.
    But we will start today with Dr. Beering. We are grateful 
for all of your perspectives and look forward to hearing from 
you. Thank you all for being here.

STATEMENT OF DR. STEVEN C. BEERING, CHAIRMAN, NATIONAL SCIENCE 
                             BOARD

    Dr. Beering. Chairman Baird, Ranking Member Ehlers, Members 
of the Subcommittee, it is a pleasure to be with you again 
today and to speak to you about the Board's recently-released 
national Action Plan for addressing the critical needs of U.S. 
science and technology, engineering, and math education system. 
I am Steven Beering, Chairman of the National Science Board and 
President Emeritus of Purdue University. The Board appreciates 
the strong support and contributions to this plan by many 
Members of Congress, including several Members of this 
committee. We are delighted that you have chosen to gain 
additional comments and insights on the Action Plan from the 
important stakeholders and learned experts you have invited 
today to provide testimony.
    We are all aware of the poor performance of American 
students in international assessments at the high school level. 
Our students, the future leaders, citizens, and workforce of 
our nation, must achieve to high standards and perform better 
relative to their international peers. Otherwise, it will be 
quite difficult for the U.S. to develop the future 
mathematicians, scientists, and engineers needed for the Nation 
to continue to lead the world in innovation.
    The Board developed this Action Plan beginning in December 
of 2005, with a hearing right here on Capital Hill. This was 
followed by Board hearings in Boulder, Colorado, and Los 
Angeles, California. In March of '06, the Board created a 
federal advisory committee. We called it the Commission on 21st 
Century Education and STEM to provide advice to the Board.
    We are grateful for the significant contributions of the 
members of this Commission whose solid advice and 
recommendations contributed importantly to this plan. The 
Commission's draft report given to our Board in March of '07, 
is appended in its entirety to the Board's Action Plan, along 
with a list of the Commission's membership. Altogether more 
than 90 experts provided input to the Action Plan, either by 
serving on the Commission itself or one of its working groups 
who are testifying before either the Board or the Commission.
    In August of '07, the Board released a draft version of our 
national Action Plan for public comment and received nearly 100 
responses. These comments were gratifyingly and overwhelmingly 
positive. Many respected reports on STEM education have been 
published by well-qualified experts over the past two and a 
half decades. With this Action Plan, the Board has built on 
those reports and prioritized the most important actions that 
can be taken by Congress and others in order to make a 
significant impact on STEM education in the Nation.
    I would like to highlight the two major recommendations in 
the Board's plan. These are, number one, insuring coherence in 
the Nation's STEM, education STEM, and number two, insuring an 
adequate supply of well-prepared and highly-effective STEM 
teachers.
    The Board has concluded that horizontal coordination of 
STEM education is needed among states and vertical alignment 
among components of the system from pre-kindergarten through 
college. A coordinated system of STEM education means that a 
student who starts kindergarten in Kansas, attends middle 
school in California, and enters high school in Illinois will 
have the opportunity to master the foundational skills needed 
for future success and more advanced STEM studies and which are 
increasingly needed in the workforce.
    The first step towards greater coherence, Federal 
Government departments and agencies should coordinate their own 
STEM education through the Office of Science and Technology 
Policy.
    Second, we recommend that a new executive position, perhaps 
an assistant secretary, be created within the Department of 
Education, to coordinate the Department's own STEM programs and 
to serve as the focal point for contact between the Department 
and other stakeholders.
    Finally, and most critically, the Board recommends that 
Congress charter a new, independent, non-federal national body 
or council for STEM education that would serve as the primary 
vehicle for facilitating coordination among all those involved 
in STEM education.
    STEM education activities or federal agencies should be 
coordinated with State and local activities through this 
national council. This entity would also facilitate and help to 
sustain horizontal coordination among states and vertical 
alignment across grade levels.
    The Board's second recommendation for STEM education 
previously expressed in a range of Board statements and reports 
over the last quarter century is targeted to the development 
and retention of a high-quality STEM teaching workforce and 
profession.
    We recognize and congratulate Congress on the valuable 
contributions in this area made by the America COMPETES Act. A 
number of the Board's recommendations are already addressed by 
this Act. What America needs today is the individual and 
collective recognition and resolve to compete globally.
    In conclusion, our Action Plan addresses the need to take 
national action now, involving all stakeholders and all levels 
of government. In particular, we urge serious consideration by 
Congress of the need for increased and sustained coordination 
of STEM education-related activities. We recommend especially 
the creation of an independent and non-federal National Council 
of STEM Education to bring together all stakeholders to achieve 
our mutual goals.
    Thank you for inviting me to testify before you today and 
for the long-term, strong support by Congress and this 
committee for education and research and science technology, 
engineering and mathematics. I will be happy to address your 
questions.
    [The prepared statement of Dr. Beering follows:]
                Prepared Statement of Steven C. Beering
    Chairman Baird, Ranking Member Ehlers, Members of the Subcommittee, 
it is a pleasure to speak to you today about the National Science 
Board's recently released National Action Plan for Addressing the 
Critical Needs of the U.S. Science, Technology, Engineering, and 
Mathematics Education System (NSB-07-114). I am Steven C. Beering, 
Chairman of the National Science Board and President Emeritus of Purdue 
University. The Board appreciates the strong support and contributions 
to this plan by several Members of this committee.
    The Board feels that science, technology, engineering, and 
mathematics (STEM) education is of critical importance to the Nation 
and is delighted that this Committee has chosen to gain additional 
comments and insights on the Action Plan from the important 
stakeholders and learned experts you have invited to also provide 
testimony today. In this written testimony I will first describe the 
process for developing the Board's Action Plan, summarize the main 
points of the Action Plan, and then describe the public comments 
received by the Board on a draft version of the Action Plan. I have 
attached as supplemental excerpted statements from select governors.

Process for Developing the Action Plan

    The development of this Action Plan has been a long and systematic 
process for the Board, beginning in December 2005 when the Board held 
the first of three hearings on what actions could be taken to improve 
K-12 science, technology, engineering, and mathematics (STEM) education 
in the Nation on Capitol Hill. The Board held two more hearings in 
February and March 2006 in Boulder, Colorado and Los Angeles, 
California. A list of those who testified at the Board hearings may be 
found in Appendix C of the Action Plan.
    In March 2006 the Board established a federal advisory committee to 
the Board, the Commission on 21st Century Education in Science, 
Technology, Engineering, and Mathematics. The Charge to the Commission 
and its membership are listed in Appendices D and E, respectively, of 
the Action Plan. The Commission presented a draft report to the Board 
in March 2007, which is included as Appendix F of the Action Plan, 
including a list of those who testified before the Commission or were 
on one of its working groups.
    The Board developed its National Action Plan based on all this 
input. I personally chaired the hearings the Board held and attended 
nearly all of the meetings of the Commission. All together, more than 
90 experts provided input to the Action Plan either by serving on the 
Commission or one of its working groups or testifying before either the 
Board or the Commission. In addition, Dr. Michael Crosby, National 
Science Board Executive Director, and Dr. Elizabeth Strickland, from 
our Board Office staff held more than two dozen meetings with various 
stakeholders to gather input to the Action Plan.
    In August 2007 the Board released a draft version of its Action 
Plan for public comment and received nearly one hundred valuable and 
overwhelmingly positive that I will summarize later in this testimony. 
A list of those who provided public comments is included in Appendix G 
of the Action Plan.

Summary of Action Plan

    Addressing the shortcomings of the Nation's STEM education system 
is absolutely essential to the continued economic success of the Nation 
and to its national security. It is essential that all American 
citizens have the necessary scientific, technological, and mathematical 
knowledge and skills to make informed personal choices and voting 
decisions and to thrive in the current technologically rich, global 
marketplace. In 2003, 18 countries out of 29 countries outperformed the 
United States in the science literacy of 15-year-olds on the OECD's 
PISA test. American students must achieve to higher standards and 
perform better relative to their international peers. Unless there is a 
broad pool of K-12 students with a solid foundation in STEM 
disciplines, it will be very difficult for the U.S. to develop the 
future mathematicians, scientists, and engineers needed for the Nation 
to continue to lead the world in innovation--an issue that the Board 
plans to address in the upcoming year.
    Many respected reports on STEM education have been published by 
well-qualified experts over the past two and a half decades. What is 
immediately apparent when one reviews these reports is that, 
tragically, many of these reports had excellent recommendations for 
actions that were never implemented.
    In developing this Action Plan, the Board has attempted to 
prioritize the most important actions that can be taken by Congress and 
others in order to make a significant impact on STEM education in the 
Nation. These actions are not, of course, the only actions that could--
or even should--be taken to improve STEM education. Rather, the intent 
of the Board in this Action Plan is to call out a few critical actions 
that are absolutely essential for significant gains in STEM education 
in the Nation.
    In order to move STEM education forward in the Nation, the Board 
believes that two major issues must be addressed--ensuring coherence in 
the Nation's STEM education system and ensuring an adequate supply of 
well-prepared and highly effective STEM teachers.
    The Nation requires a coordinated system of STEM education. There 
is a need for both horizontal coordination of STEM education among 
states and vertical alignment among components of the system, from pre-
kindergarten through college. A coordinated system of STEM education 
means that a student who starts kindergarten in Kansas, attends middle 
school in California, and enters high school in Illinois will have the 
opportunity to master the foundational skills needed for future success 
in the workforce and higher education.
    Second, the Nation requires a supply of well-qualified, highly 
effective, and well-supported teachers. Teachers, as you are well 
aware, are critically important to student learning in the classroom, 
and we must make serious efforts to attract top-quality teachers into 
the classroom in STEM disciplines, ensure their preparation for 
teaching STEM content is thorough, and effectively support them while 
they are in the classroom.
    First, the Board strongly feels that increased coordination of STEM 
is essential for significant improvements to be made. Coordination 
should occur both across the Federal Government and among the Federal 
Government and all stakeholders including, in particular, local and 
State education agencies and institutions of higher education. The 
Board is well aware that local and State governments bear the ultimate 
responsibility in the Nation's public education system and does not 
challenge this role. The actions being proposed by the Board are 
intended to provide mechanisms for the Federal Government to better 
support local and State efforts and for local and State education 
agencies to interact effectively with each other and other stakeholders 
in addition to the Federal Government.
    I will not describe in detail all the recommendations in the Action 
Plan for this coordination, but rather highlight, briefly, the four 
places where the Board feels coordination should occur.
    First, without question, the Federal Government must do a better 
job of coordinating its own STEM education activities. The Academic 
Competitiveness Council report that inventoried federal STEM education 
programs for fiscal year 2006 put the spending total for all agencies 
at more than $3 billion scattered across 100--some programs--
approximately $575 million of which was for K-12 programs. To maximize 
the effectiveness of this spending and these programs, the Board's 
recommendation is that all federal agencies coordinate their STEM 
education efforts through the National Science and Technology Council 
(NSTC) within the Office of Science and Technology Policy in the 
Executive Office of the President. The Board recommends that given the 
importance of this issue a full committee on STEM Education be created 
within the NSTC.
    Second, given the clear, important role that the Department of 
Education plays in STEM education, the Board recommends that a new 
Assistant Secretary position be created within the Department of 
Education to coordinate STEM programs within the Department and to 
serve as the focal point for those outside the Department to interact 
with the Department on STEM education issues.
    Third, much direction is given in the Action Plan to the specific 
responsibilities of the National Science Foundation toward STEM 
education in the Nation and how it should be prioritizing and focusing 
its own activities and partnering with other federal agencies.
    Finally, and perhaps most importantly, the Board recommends the 
creation of something that does not currently exist and is without 
precedent--a National Council for STEM Education. The Board recommends 
that Congress charter a new, non-Federal National Council for STEM 
Education that would coordinate among all those involved in STEM 
education, not just those at the federal level. Potential members of 
the Council are shown here. The Council would be made up of 
representatives from local and State governments and organizations, 
professional STEM educators, the business community, higher education, 
private foundations, STEM disciplinary societies, informal STEM 
education, and other stakeholders. The Federal Government would be 
represented on the Council through representatives from the NSTC 
Committee on STEM Education that I described earlier. The role of the 
Council would be to coordinate among all its members to ensure that 
STEM education in the Nation moves forward. A detailed list of proposed 
responsibilities may be found in the Action Plan text.
    Now that I have described the ``who'' of the recommendations for 
increased coordination, I briefly describe the Board's vision for a 
coherent national STEM education system.
    The Board's Action Plan recommends that all stakeholders work 
together through the National Council for STEM Education to ensure 
horizontal coordination among states and vertical alignment across 
grade levels. This is particularly important in our highly 
geographically mobile society. A 2004 Census Bureau report estimates 
that 15 to 20 percent of school-aged children moved in the previous 
year, and a 1994 GAO study reported that one out of six students had 
attended three or more schools by the end of third grade. In this 
context, coordination of STEM learning, which requires the systematic 
building of a knowledge base, is critical. Details of each of these 
aspects may be found in the text of the Action Plan. Briefly, however,
    The Board recommends that all stakeholders work together, using the 
National Council for STEM education to provide horizontal coordination 
of STEM education among states by:

        <bullet>  Facilitating a strategy to define national STEM 
        content guidelines that would outline the essential knowledge 
        and skills needed at each grade level;

        <bullet>  Developing metrics to assess student performance that 
        are aligned with national content guidelines;

        <bullet>  Ensuring that assessments under No Child Left Behind 
        promote STEM learning; and

        <bullet>  Providing a forum to share and disseminate 
        information on best practices in STEM teaching and learning.

    Additionally, the Board recommends that all stakeholders promote 
vertical alignment of STEM education across grade levels--from pre-
kindergarten through the first years of college by:

        <bullet>  Improving the linkage between high school and higher 
        education and/or the workforce; and

        <bullet>  Creating or strengthening STEM education-focused P-16 
        or P-20 councils in each state.

    Finally, the Board feels strongly that serious national attention 
must be focused on attracting, preparing, and retaining qualified and 
committed teaching candidates. The Board recognizes that much was done 
in the America COMPETES Act to support STEM teacher preparation and we 
are supportive of that. STEM educators should be viewed as a valuable 
national resource, and the best and the brightest should be encouraged 
to consider pre-college STEM teaching as a profession. Accordingly, the 
Board recommends:

        <bullet>  Developing strategies for compensating STEM teachers 
        at market rates;

        <bullet>  Providing resources for the preparation of future 
        STEM teachers;

        <bullet>  Increasing STEM teacher mobility between districts by 
        creating national STEM teacher certification standards; and

        <bullet>  Preparing STEM teachers to teach STEM content 
        effectively.

    Although all stakeholders must work to address shortages in the 
STEM teacher supply, this is an area where institutions of higher 
education must play a large role and communication must increase among 
community colleges and four year institutions and among schools of 
education and colleges of arts and science and schools of engineering.
    To summarize, this Action Plan lays out a structure that will allow 
stakeholders from local, State, and Federal governments, as well as 
non-governmental STEM education stakeholder groups, to work together to 
coordinate and enhance the Nation's ability to produce a numerate and 
scientifically and technologically literate society and to increase and 
improve the current STEM education workforce.

Summary of Public Comments

    The Board received more than 100 public comments on the Action 
Plan. The comments came from a broad range of stakeholders--states, K-
12 teachers, disciplinary societies, university faculty and 
administrators, mathematicians, scientists and engineers, various 
organizations, and parents.
    Overall the comments were positive with a number noting their 
gratitude for the Board's willingness to address this topic.
    The dominant themes that emerged from the comments were:

        (1)  General support for the National Council for STEM 
        Education, but suggestions for ways that the Council could be 
        structured slightly differently. These included increasing the 
        level of staff support to accomplish the Council's mandate, 
        including additional specific groups, and suggesting alternate 
        ways the initial members of the Council could be appointed. A 
        few raised the concern that the Council could become 
        ineffective bureaucracy.

        (2)  Concern that disciplinary societies (and national labs) 
        were given an inadequate role in the draft Action Plan.

        (3)  General support for the draft Action Plan statements on 
        increasing STEM teacher compensation.

        (4)  Many comments related to a need for a sea-change in public 
        perception of STEM fields and student interest in these. There 
        were many recommendations for increased emphasis for this in 
        the draft Action Plan and for the need for a public campaign to 
        raise the profile of STEM fields.

        (5)  Concern that technology, engineering, and mathematics are 
        not adequately emphasized and that the draft Action Plan was 
        really more about science than the other disciplines. A 
        repeated concern raised was that technology and engineering 
        skills are in particular demand in the 21st century.

        (6)  Regarding national content guidelines there was a mix of 
        opinions about the merit of this and concerns about unintended 
        consequences of the implementation.

        (7)  Concern that not enough responsibility was assigned to the 
        colleges of arts and sciences and engineering to be 
        collaborating with colleges of education to prepare STEM 
        teachers.

    The revisions made to the draft Action Plan in response to the 
public comments were adjustments to the language and emphasis of 
sections of the Action Plan rather than a significant restructuring of 
the Action Plan recommendations.

Concluding Statements

    In releasing this National Action Plan, the Board is making a 
statement that it feels action must be taken on STEM education now. To 
be frank, the United States cannot afford to let the status quo of STEM 
education in the Nation continue. If this critically important, yet 
often disregarded, issue is not addressed, my grandchildren and the 
generations that follow will not have the same opportunities for world 
leadership in STEM and standard of living as those of us serving on the 
Board today have enjoyed.
    Many of the recommendations in the Board's Action Plan--
particularly related to STEM teacher preparation--are consistent with 
items in the America COMPETES Act that Congress passed and the 
President signed into law in August. Congress is to be congratulated 
for the bold steps taken there.
    The Board is in agreement that although many of the steps already 
taken by Congress and underway in many states through the leadership of 
Governors are extraordinarily valuable and important, without a focal 
point for coordination, these scattered programs likely will not be 
able to effect a large change in the Nation's overall STEM education 
system. The Board is convinced that the recommendations made in the 
Action Plan for increased coordination of STEM education and, in 
particular, the creation of an independent and non-federal National 
Council for STEM Education to bring together all stakeholders must be 
given serious consideration by Congress.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                    Biography for Steven C. Beering
    Steven C. Beering received B.S. and M.D. degrees and an honorary 
Doctor of Science degree from the University of Pittsburgh. Before 
becoming President of Purdue in 1983, he served for a decade as Dean of 
Medicine and Director of the Indiana University Medical Center. He 
holds appointments as professor of medicine at Indiana University and 
professor of pharmacology at Purdue University. He retired from the 
Purdue presidency in 2000.
    He served on active duty with the USAF Medical Corps from May 1957 
to June 1969, achieving the rank of Lieutenant Colonel.
    Beering has held numerous national offices, including the 
chairmanship of the Association of American Medical Colleges and the 
Association of American Universities. He is a former regent of the 
National Library of Medicine.
    He is also a Fellow of the American College of Physicians and the 
Royal Society of Medicine, a member of Phi Beta Kappa, the Institute of 
Medicine of the National Academy of Sciences, and the Indiana Academy.
    He serves on a number of national and corporate boards, including 
NiSource Inc., Central Indiana Corporate Partnership, Inc., Community 
Foundation of Northern Indiana, CID Corporation, and Marquis Who's Who. 
He is a Trustee of the University of Pittsburgh, and the Universities 
Research Association, and is Director Emeritus of the Purdue Research 
Foundation.
    Beering was appointed to the National Science Board in 2002, 
reappointed in 2004, and elected Chairman in 2006.

STATEMENT OF MS. JUDY A. JEFFREY, DIRECTOR, IOWA DEPARTMENT OF 
   EDUCATION, REPRESENTING THE COUNCIL OF CHIEF STATE SCHOOL 
                            OFFICERS

    Ms. Jeffrey. Chairman Baird, Ranking Member Ehlers, and 
Members of the Subcommittee, thank you. I am testifying today 
on behalf of the Chief State School Officers and in my capacity 
as Director of Education for the State of Iowa. I was also the 
co-chair of a recently-related report from CCSSO regarding math 
and science education.
    I appreciate the opportunity to provide a State perspective 
on the Action Plan. I can tell you that the Chief State School 
Officers are playing a key role within our respective states to 
improve science and mathematics education.
    This is a very high priority for us, and although each 
state may be approaching the situation in a little different 
way, all believe strongly that STEM education must be a high 
priority for us. States have the responsibility for guiding and 
leading the local school districts in raising student 
expectations, providing rigorous and relevant curriculum, and 
helping determine appropriate and instructionally-helpful 
assessment techniques.
    In Iowa we have developed rigorous and relevant curricular 
expectations in math and science with accompanying model 
lessons and units to assist our teachers in developing higher-
level thinking and deepen students' learning. We have expanded 
the number of middle school and high school sites to implement 
a pre-engineering curriculum entitled, ``Project Lead the 
Way.''
    I know from personal experience in Iowa, along with other 
states, we are concerned about recruiting and retaining math 
and science teachers. At a time when the Nation and many states 
need more engineers, we also need more math and science 
teachers. I appreciate and commend the report on the 
recommendation to increase STEM teacher compensation and 
improve human capital.
    States are also busy aligning expectations from pre-K 
through 16 by working with business and higher education and 
considering their own initiatives to improve articulation, 
establish consistent expectations, and expand educational 
opportunities for practicing teachers.
    States do need help from the Federal Government, and I 
agree with the report's recommendation that better coordination 
is needed among all federal departments and agencies involved 
in STEM education research and programs.
    State departments of education face competing requirements 
and priorities from different STEM education programs and 
efforts, so this recommendation is a step in the right 
direction to streamline federal programs.
    The last thing, frankly, we need right now as we race to 
compete is more bureaucracy. What I need the most right now to 
help improve STEM education is the emphasis in the Action Plan 
to provide and communicate research on STEM education. As our 
teachers work with struggling students and those who do not 
believe they can master math and science, we need the most up-
to-date research on how we can better motivate and engage 
students in rigorous and relevant learning.
    Funding that assists a state to implement innovative models 
and actions to engage students' minds and their willingness to 
pursue math and science careers is much more helpful than more 
bureaucratic processes or directives.
    Iowa's high school reform efforts are focusing on creating 
teaching approaches that develop authentic, intellectual work 
on the part of the students and teaching strategies that engage 
students in relevant and meaningful tasks and high-level 
skills.
    Some specific concerns I have with the STEM Education 
Council is the Council's charge to develop STEM's content 
guidelines. This effort may easily be perceived as a creation 
of national content standards. Since a large number of states 
and localities are not involved in the decision-making process, 
the Council will not have as much buy-in as is needed for this 
type of initiative.
    I do believe the Council is not the appropriate vehicle for 
the creation of National STEM content standards. Instead, of 
national content standards the Council could develop cross-
cutting, integrative areas that move the discussion to what the 
intent of STEM education should be. We must embed the 
mathematics, science, and technological skills required of 
world-class students across the disciplines and within the 
career and technical programs and areas.
    Our needs are great, but it does not lie in more rules, 
more reports, and more oversight. Each teacher deserves high-
quality, ongoing, and on-the-job professional development in 
researched-based instructional strategies. Incentives from the 
Federal Government to assist states to implement innovative 
programs and practices to raise math and science achievement 
might just provide some of the keys to unlock America's student 
human potential.
    What better way for American's education system to take a 
front-end, center stage to raise our sights high but engaging 
our educator's human spirit and desire to improve student 
learning. There is much to do. We are not interested in 
duplicate work that is already proceeding, nor should we hinder 
our efforts to improve.
    Streamlining federal work, helping states in their work, 
and providing incentives for innovation would be welcomed by me 
and my colleagues.
    Thank you, and I look forward to any questions you might 
have.
    [The prepared statement of Ms. Jeffrey follows:]
                 Prepared Statement of Judy A. Jeffrey
    Chairman Baird, Ranking Member Ehlers, and Members of the 
Subcommittee, thank you for the opportunity to testify today regarding 
the National Science Board's (NSB) Action Plan for science, technology, 
engineering, and math (STEM) education. I am testifying today on behalf 
of the Council of Chief State School Officers (CCSSO) and in my 
capacity as the Director of the Iowa Department of Education. I was 
also the Co-Chair of the Council's Math and Science Education Task 
Force in 2006.
    Thank you for inviting me to provide a State perspective on the NSB 
Action Plan. States play a key role in developing our nation's STEM 
education system and have put considerable energy and resources into 
improving it. Just in the last year, Iowa developed new rigorous and 
relevant curricular expectations in science, expanded Project Lead the 
Way accessibility, and implemented a public-private partnership related 
to STEM professional development for teachers.
    First, I would like to comment on the positive steps the NSB Action 
Plan is taking. The report rightly addresses State responsibility for 
STEM education and appropriately places emphasis on the critical need 
to recruit STEM teachers and develop their skills. I also agree with 
the report's recommendation that better coordination is needed among 
all federal departments and agencies involved in STEM education 
research and programs. State departments of education face competing 
requirements and priorities from different STEM education programs, so 
this recommendation is a step in the right direction to streamline 
federal programs. The Action Plan places needed emphasis on the Federal 
Government effectively providing and communicating research on STEM 
education, which is a priority for CCSSO and one of our recommendations 
for the reauthorization of the Elementary and Secondary Education Act 
(ESEA).
    My fellow chief State school officers and I support coordination on 
STEM education among states and national organizations since we learn 
from sharing our experiences and ideas and adopting successful 
practices from other states. In fact, recommendations from our Math and 
Science Education Task Force emphasize working with national 
organizations to enhance curricula, instructional materials, and the 
STEM education movement more broadly. We also believe that a state has 
the responsibility to align P-16 expectations, curriculum, and 
licensing requirements to ensure that the State systems are aligned, to 
not only create the most powerful opportunities for students but also 
to ensure smooth transitions of students. States across this nation are 
already engaged in this work.
    The national STEM education council seeks to increase collaboration 
and coordination among stakeholders; however, the council runs the risk 
of creating another level of bureaucracy rather than moving the 
conversation on STEM education forward. States are already taking many 
steps on their own to build our students' knowledge of science, 
technology, engineering, and math and align high school with college 
and work expectations. These efforts should receive support from the 
Federal Government so promising work can be expanded. Funding that 
assists a state to implement innovative models and actions to engage 
students' minds and their willingness to pursue math and science 
careers is much more helpful than more bureaucratic processes or 
directions. Iowa's high school reform efforts are focusing on creating 
teaching approaches that develop authentic intellectual work on the 
part of the students and teaching strategies that engage students in 
relevant and meaningful tasks and high level skills.
    There are other specific concerns I have with the STEM education 
council. The council's charge to develop STEM content guidelines may 
easily be perceived as creation of national content standards. Since a 
large number of states and localities are not involved in the decision-
making process, the council will not have as much buy-in for this 
initiative. The council may not be an appropriate vehicle for creation 
of national STEM content standards. Instead of national content 
standards, the council could develop crosscutting, integrative areas 
that move the discussion to what is the intent of STEM education. We 
must embed the mathematics, science, and technology skills required of 
world class students across the disciplines and within the career and 
technical courses. Also, one of the responsibilities of the council is 
to create a regular report on STEM education in states and the Nation. 
This may not be the best use of time and funds for the council since 
there is no clear value in producing another report unless it truly 
helps states and districts improve their policies.
    Changes to STEM education cannot be considered without 
acknowledging the current accountability environment states and 
districts encounter under NCLB, which can provide a disincentive to 
deep, meaningful change in STEM education. Also, as the NSB Action Plan 
acknowledges, assessments must match State standards to have a 
significant impact. If State standards require students to demonstrate 
problem-solving skills and apply their knowledge to real world 
situations, then assessments must do the same. Funding and support from 
the Federal Government to create better assessments has not been 
adequately provided in the past. The report recognizes the importance 
of assessment and that states should enhance their math and science 
assessment systems. However, the Action Plan does not address how 
states would deal with the cost and amount of time it takes to produce 
these more complex assessments. I believe that the Federal Government 
could play a role in supporting states' development of assessments that 
require high-level thinking and are also designed to provide feedback 
to teachers that they can use to improve instruction. Iowa is fortunate 
to have several companies that are ``experts in assessment'' in our 
backyard. But, the types of assessments being discussed are expensive. 
States simply do not have the resources currently to develop 
assessments that measure what is truly meaningful to measure. At the 
same time we must consider where limited funds can best be spent. I 
would prefer investing in improving the quality of teaching.
    This takes me to another topic with great focus in the report: 
professional development. It is a key way that we can improve STEM 
education since we must change what occurs in our classrooms if we want 
to see changes in student learning. To build on the Action Plan's 
recommendations around professional development, there should be 
greater emphasis on communicating to education leaders and teachers 
what quality really means in professional development and the knowledge 
and skills STEM teachers need to be effective. On-going, in-depth, on 
the job professional development will hold the greatest promise of 
improving teaching and learning. Pre-service programs must also 
incorporate STEM learning for elementary school classroom teachers, who 
are often young children's primary science educators. The Action Plan 
should acknowledge the need for prospective elementary school teachers 
to receive challenging math and science content and pedagogy or course 
work in their teacher preparation programs.
    Overall, I am pleased to see that the National Science Board's 
Action Plan for STEM education recognizes the leadership of states and 
districts on STEM education issues and seeks to enhance collaboration 
and communication between all STEM stakeholders. The Federal Government 
should play a role in improving STEM education by increasing 
coordination among federal agencies and programs and supporting and 
communicating more STEM education research that is useful to educators 
and policy-makers. The Federal Government needs to provide assistance 
to states and districts to develop and expand innovative programs on 
STEM education. We look forward to continuing our dialogue with you 
about ways to improve student learning in science, technology, 
engineering, and math education.
    Thank you. I look forward to any questions you may have.

                     Biography for Judy A. Jeffrey
    Judy Jeffrey was appointed Director of the Iowa Department of 
Education in November 2004. In this role, she provides leadership and 
supervision for an educational system that includes 520,000 students in 
public and private accredited K-12 schools; 115,000 credit students in 
15 community colleges; and 3,500 employees in 10 area education 
agencies. Before serving as Director, Judy Jeffrey had been the state's 
Early Childhood, Elementary & Secondary Division Administrator since 
1996.
    Before that, she served 24 years in the Council Bluffs Community 
School district in various administrative and classroom teaching 
positions. Jeffrey also has been an instructor at Creighton University, 
and has taught in other Iowa districts including Cedar Falls and 
Goldfield, where she began her teaching career.
    She was President of the Council of Chief State School Officers 
Deputy Commission from 2001-2003, and currently is a member of the 
Chief State School Officers. Jeffrey earned her Bachelor's degree from 
the University of Northern Iowa, her Master's degree from Creighton 
University and postgraduate work at the University of Nebraska at 
Omaha.

    Chairman Baird. Thank you very much. We have been joined by 
the distinguished gentleman from Texas, Mr. Hall, and by Dr. 
McNerney from California and by Dr. Lipinski as well. Thank you 
all.
    Dr. Fennell.

 STATEMENT OF DR. FRANCIS (SKIP) FENNELL, PRESIDENT, NATIONAL 
               COUNCIL OF TEACHERS OF MATHEMATICS

    Dr. Fennell. Good morning, Chairman Baird and Congressman 
Ehlers. My name is Francis ``Skip'' Fennell. I am a Professor 
of Education at McDaniel College in Westminster, Maryland. 
Today I am here as the President of the National Council of 
Teachers of Mathematics. At this time I will be highlighting 
elements of the testimony that you have received.
    First, thank you for the opportunity to speak with you 
about the National Science Board's National Action Plan for 
STEM education. NCTM believes that creating a coherent STEM 
curriculum and placing a well-qualified, highly-effective 
teacher in every STEM classroom are critical goals for this 
efforts. Creating an independent national council for STEM 
education can reestablish the sustained critical focus in 
education that was the hallmark of this country's success in 
response to the launch of Sputnik 50 years ago.
    Implementing all aspects of the National Science Board's 
National Action Plan for addressing the critical needs of the 
U.S. science, technology, engineering, and mathematics 
education system could produce significant, and more 
importantly, enduring changes in STEM education.
    NCTM especially supports those recommendations that 
acknowledge the need for more and better STEM teachers. Time 
and ago research has shown that the most important factor in 
student achievement is the quality of the teacher. All teachers 
must understand how students learn. Highly-qualified teachers 
of mathematics not only understand but also invest in the 
particular culture of their students and school, and they must 
actively engage students of diverse backgrounds and strengths 
in significant and challenging mathematics.
    The creation of an assistant secretary of STEM education at 
the Department of Education would bring much needed 
coordination among the numerous existing programs that address 
STEM education, and the formation of a new, independent, non-
federal national council for STEM education to coordinate 
programs nationwide would raise the profile and importance of 
STEM education and development.
    We also believe that a coherent STEM education roadmap can 
be defined through the combined efforts of the National Science 
Foundation and the Department of Education. We strongly 
encourage capitalizing on the work that is currently being done 
on learning and educational practices of the National Science 
Foundation. This work can augment and improve instructional 
practice and student learning, topics which are currently being 
examined by the National Mathematics Panel of which I am a 
member.
    As the Board noted, one of the most significant challenges 
facing the STEM fields and mathematics education is a lack of 
curricular coherence. Curricula today are dominated by long 
lists of very specific learning expectations. How does a 
teacher, typically a generalist, at the elementary school level 
identify what is most important at the fourth grade level and 
try to deal with that common, perhaps tiring, criticism that 
our curriculum is a mile wide and an inch deep. Greater 
curricular coherence is needed horizontally among states and 
vertically across grade levels.
    In 2006, the National Council of Teachers of Mathematics 
addressed the coherence issue with the publication of, 
``Curriculum Focal Points for Pre-kindergarten through Grade 
Eight Mathematics: A Quest for Coherence.'' The focal points 
describes the most significant mathematical concepts and skills 
for each grade level and presents a way to organize and connect 
critical mathematics topics from grade to grade.
    The focal points build a foundation for higher-level 
mathematics beginning with algebra. Curriculum focal points 
present the framework to guide states and school districts as 
they design and organize their expectation and assessments. 
They are intended to frame discussions that will eventually 
guide textbook publishers and assessment developers as well. 
The focal points answer the question: What are the key 
mathematical ideas or topics on which the others build? Another 
mathematics panel topic, the goal is for the focal points to be 
used in the development of mathematics curriculum goals that 
are more cohesive from grade to grade and from school to 
school, and with a high rate of mobility in this country, dare 
I say, from state to state.
    This process has begun. NCTM has made presentation to work 
with more than 20 States, including Oregon and Maryland. They 
are now using the focal points to assist them as they revise 
State standards and assessments.
    Finally, I would be remiss if I didn't address an element 
of a child's education that is often overlooked. As the 
National Science Board and other prominent education leaders 
have noted, a child's first and perhaps most influential 
teacher is a parent. Any call to action must recognize the 
critical role that families play in encouraging children and 
exposing them to knowledge and ideas about any topic or 
subject, including mathematics. This does not mean that all 
parents have to solve all the problems, know all the answers, 
but they must value the importance of this subject.
    In closing, and I cannot tell you how pleased and excited I 
am about the attention that mathematics and the STEM 
disciplines are receiving. The COMPETES bill, the NSB's plan 
and discussions about changes to the Elementary and Secondary 
Education Act are the fruits of years of effort to bring about 
change, and I look forward to seeing where it takes mathematics 
education and more importantly, our nation's students.
    Thank you very much for this opportunity. I look forward to 
your questions.
    [The prepared statement of Dr. Fennell follows:]
              Prepared Statement of Francis (Skip) Fennell
    Good morning, Chairman Baird and Congressman Ehlers. My name is 
Francis (Skip) Fennell. I am a Professor of Education at McDaniel 
College in Westminster, Maryland. I am here today as President of the 
National Council of Teachers of Mathematics (NCTM).
    First, thank you for the opportunity to speak with you about the 
important effort undertaken by the National Science Board to develop a 
national action plan for STEM education. NCTM believes that creating a 
coherent STEM curriculum and placing a well-qualified, highly effective 
teacher in every STEM classroom are critical goals for this effort. In 
a national system where every local school board is empowered to decide 
what is taught and who does the teaching in every classroom, there are 
daunting, but not insurmountable, challenges to achieving these goals. 
By establishing an independent National Council for STEM Education, we 
can re-establish the sustained critical focus in education that was the 
hallmark of this great country's success in response to the launch of 
Sputnik 50 years ago. We support the creation of a national council and 
are optimistic that it would develop an agenda that would identify and 
address the issues that would make a meaningful difference in student 
learning. The National Council of Teachers of Mathematics is very 
willing and eager to support this effort.
    Before I turn to NCTM's comments on the report, I would like to 
address an element of a child's education that is often overlooked by 
policy experts and elected officials. As members of the National 
Science Board and other prominent education leaders have noted, a 
child's first--and perhaps most--influential teacher is a parent. Any 
call to action--small or large--must recognize the crucial role that 
parents play in encouraging children and exposing them to knowledge and 
ideas about any topic or subject, including mathematics. Without 
parental support and involvement, it will be very difficult to convince 
young people of the urgency and importance of STEM literacy in this 
country.
    Just as parents must do their part, educators and lawmakers must do 
what we can to reach beyond the ``best and brightest'' students, 
lending tangible support and extending viable options to all young 
people throughout our K-12 system. And it is important that we truly 
reach all students and meaningfully address the persistent problem of 
achievement gaps in education. This is a challenge for all of us 
involved in education, and it is one that we must continually address 
in all its forms.

The NSB STEM Action Plan

    As you know, in August the National Science Board released a draft 
of what is now its final report, ``A National Action Plan for 
Addressing the Critical Needs of the U.S. Science, Technology, 
Engineering, and Mathematics Education System.'' NCTM submitted a 
number of comments, expressing support for the overall intent of the 
plan and, in general, its recommendations. Implementing all aspects of 
the plan could produce significant--and, more important--enduring, 
change in STEM education, laying the foundation for high academic 
achievement in STEM fields in the future and providing all students 
with the knowledge required to be successful, productive citizens.
    NCTM especially supports those recommendations that acknowledge the 
need for more and better STEM teachers. Time and again, research has 
shown that the most important factor in student achievement is the 
quality of the teacher. We endorse all efforts to ensure that students 
are taught by well-qualified and highly effective teachers. We strongly 
support offering resources for their academic preparation, increasing 
STEM teacher mobility between districts by creating national STEM 
teacher certification standards, and preparing STEM teachers to teach 
STEM content effectively.
    It is the position of the Council that every student has the right 
to be taught mathematics by a highly qualified teacher--a teacher who 
knows mathematics well and who can guide students' understanding and 
learning. A highly qualified teacher understands how students learn 
mathematics, expects all students to learn mathematics, employs a wide 
range of teaching strategies, and is committed to lifelong professional 
learning.
    All teachers must understand how students learn mathematics. They 
must know how to plan, conduct, and assess the effectiveness of 
mathematics lessons. In addition, they must listen and question, 
knowing how and when to make important teaching decisions. Highly 
qualified teachers of mathematics not only understand, but also invest 
in, the particular culture of their students and school. They dedicate 
time and energy both inside and outside the classroom. And they are 
adept at actively engaging students of diverse backgrounds and 
strengths in significant and challenging mathematical tasks that help 
them understand concepts, learn skills, and solve problems.
    The creation of an Assistant Secretary of STEM Education at the 
Department would bring much-needed coordination among the numerous 
existing programs that address STEM education. And the formation of a 
new, independent, non-federal National Council for STEM Education to 
coordinate programs nationwide would raise the profile and importance 
of science, mathematics, engineering, and technology education and 
development.
    Finally, we believe that a coherent ``STEM education roadmap'' can 
be defined through the combined efforts of the National Science 
Foundation and the Department of Education. Working together and 
drawing on the findings and expertise of other agencies and 
organizations in the education and scientific communities, these 
partners can attain this goal, and its achievement will support and 
serve STEM education well. We strongly encourage capitalizing on the 
work that is currently being accomplished on learning and educational 
practices by the National Science Foundation. This work can augment and 
improve current instructional practice and student learning.
    The forthcoming work of the National Mathematics Advisory Panel 
should also provide guidance on the future for mathematics education. 
The panel's report, which will be published and released in February, 
continues to emphasize the importance of research on the teaching and 
learning of mathematics and the need for high-quality teachers and 
curricular coherence, through findings that are reinforced by research.

NCTM's Curriculum Focal Points

    As the Board noted in its report, one of the most significant 
challenges facing STEM fields and mathematics education is a lack of 
curricular coherence in the early grades. Today's mathematics curricula 
tend to be dominated by long lists of very specific goals, standards, 
objectives, or learning expectations, which present teachers with a 
formidable challenge. How does a teacher identify what is most 
important and address the common criticism that our curriculum is ``a 
mile wide and an inch deep?''
    The impact of this lack of curricular coherence is felt in many 
ways. For example, student mobility is much greater today than in the 
past, and it continues to increase. More and more students are changing 
schools, and frequently they must adapt to a completely different 
curriculum as a result. Greater curricular coherence is needed 
horizontally, among states, and vertically, across grade levels.
    In 2006, the National Council of Teachers of Mathematics addressed 
this issue with the publication of Curriculum Focal Points for 
Prekindergarten through Grade 8 Mathematics: A Quest for Coherence. 
Curriculum Focal Points describes significant mathematical concepts and 
skills for each grade level. It presents a way to organize and connect 
critical mathematics topics from grade to grade. Focal Points are the 
related ideas, concepts, skills, and procedures that form the 
foundation for understanding, lasting learning, and success in higher-
level mathematics, beginning with algebra.
    Curriculum Focal Points presents a focused framework to guide 
states and school districts as they design and organize the next 
revisions of their expectations, standards, curriculum, and assessment 
programs. The focal points are intended to frame discussions that will 
eventually inform the decisions of textbook publishers and assessment 
developers, as well. They answer the question, ``What are the key 
mathematical ideas or topics on which the others build?'' The ultimate 
goal would be for these suggestions, the Focal Points, to lead to the 
development of mathematics curriculum goals that are more cohesive from 
grade to grade and from school to school.
    In fact, this process has begun in many states. NCTM has already 
made presentations in, or worked with, more than 20 states that are 
referring to Curriculum Focal Points as they develop State standards 
and assessments. Because mathematics is such an important foundation 
for all STEM fields, and because younger students learn mathematics 
almost exclusively in the classroom, the early mathematics education of 
all students is crucial to the future success of any STEM planning and 
policies.

Conclusion

    Building on the momentum created by a series of landmark reports 
and the tireless work of leaders in education, business, industry, and 
government, the Congress in recent months has enacted important new 
policies that will potentially fuel this work. You and your colleagues 
on the House Science and Technology Committee accomplished much of this 
work. We thank you for all your efforts. Mathematics educators are 
particularly encouraged by new investments in teacher recruitment and 
retention programs, including the changes made to the Noyce Scholarship 
program, and a new Math Now initiative, which will help mathematics 
teachers teach students who are the hardest to teach. These 
innovations, which we hope will be funded, are sorely needed.
    In closing, I cannot tell you how excited I am about the attention 
that mathematics and the STEM disciplines are receiving. The COMPETES 
bill, the NSB's plan, and conversations around changes to the 
Elementary and Secondary Education Act are the fruits of years of 
effort to bring about change, and I look forward to seeing where it 
takes mathematics educators and our nation's students.
    I will be pleased to answer any questions. Thank you.

                  Biography for Francis (Skip) Fennell
    Dr. Fennell has experience as a classroom teacher, a principal, and 
a supervisor of instruction. He is currently Professor of Education at 
McDaniel College and President of the National Council of Teachers of 
Mathematics.
    Widely published in articles and textbooks related to elementary 
and middle-grade mathematics education, Dr. Fennell has also authored 
chapters in yearbooks and resource books published by the National 
Council of Teachers of Mathematics. In addition, he has played key 
leadership roles with the National Council of Teachers of Mathematics, 
the Research Council for Diagnostic/Prescriptive Mathematics, the 
Mathematical Sciences Education Board, the National Science Foundation, 
the Maryland Mathematics Commission, and the Association for 
Mathematics Teacher Educators. On April 29, 2006 he began serving a 
two-year term as president of the National Council of Teachers of 
Mathematics.
    Dr. Fennell has received numerous honors and awards, including 
Maryland's Outstanding Mathematics Educator (1990), McDaniel College's 
Professor of the Year (1997), and the CASE--Carnegie Foundation 
Professor of the Year (1997). He has also has been the principal 
investigator on grants from the National Science Foundation, the U.S. 
Department of Education, the Maryland Higher Education Commission, and 
the ExxonMobil Foundation. He earned his Bachelor's degree from Lock 
Haven University of Pennsylvania and a Master's from Bloomsburg 
University of Pennsylvania before receiving a Ph.D. from Pennsylvania 
State University.

    Chairman Baird. Thank you, Dr. Fennell.
    Ms. Gayl.

    STATEMENT OF MS. CHRISANNE L. GAYL, DIRECTOR OF FEDERAL 
          PROGRAMS, NATIONAL SCHOOL BOARDS ASSOCIATION

    Ms. Gayl. Good morning, Chairman Baird, Ranking Member 
Ehlers, and Members of the Subcommittee. Thank you for the 
opportunity to testify here today.
    First, let me express our appreciation for the Committee's 
leadership in this area. Science, technology, engineering, and 
math or ``STEM'' education, is an important part of the 
education and skills that our students need to become 
productive workers, good citizens, and intelligent consumers in 
the 21st century.
    In order to remain effective and relevant, our education 
system must be able to provide students with the content, 
knowledge, and skills that they will need to pursue STEM-
related careers if they choose and also to adapt to the changes 
that society demands.
    The National Science Board's Action Plan offers some useful 
suggestions on ways that the Federal Government can help to 
enrich teaching and learning in these fields. If I leave the 
Committee with just one overall impression today, I hope it is 
this: NSBA believes that this Action Plan is a step in the 
right direction. In particular, its focus on insuring an 
adequate supply of well-prepared and effective STEM teachers is 
essential to improving student learning.
    However, we caution the Committee against some of the 
Board's recommendations that could ultimately erode State and 
local control over and public accountability for education. I 
would like to highlight a few of the key recommendations which 
are of particular interest to local school boards.
    First, NSBA strongly supports the plan's focus on 
developing human capital to meet the need for an abundant 
supply of well-prepared STEM teachers. Local school systems 
encounter many barriers to recruiting and retaining high-
quality teachers. The clear link between teacher quality and 
student achievement, coupled with estimates that two million 
new teachers will be needed in the next decade, argues for a 
sustained commitment and partnership among all levels of 
government to build and maintain a strong teaching force.
    NSBA supports an array of incentives, many of which are 
included in this report, to recruit and retain teachers, 
including performance-based pay, bonuses, alternative 
certification programs, and student loan forgiveness.
    In addition, NSBA agrees that Congress should help 
strengthen teacher preparation programs within universities to 
insure appropriate alignment and accountability. Clearly we 
must insure that teachers have the content knowledge that their 
students will be expected to learn.
    NSBA believes that the creation of a STEM education council 
could be helpful in coordinating the various STEM-related 
initiatives throughout the Federal Government, as well as in 
disseminating best practices and developing tools and resources 
for educators to use in the field.
    However, as proposed, this council would have significantly 
greater powers and considerable influence over the direction of 
our nation's education policy, with little to no accountability 
or oversight. The approach of empowering a National council to 
develop academic consent, guidelines, and teacher certification 
requirements would divest State and local governments of their 
traditional responsibilities and authority over public 
education.
    NSBA believes that the dissemination of content guidelines 
could be helpful in enriching math and science curriculum and 
helping communities to set clear expectations for their 
students.
    However, we caution that it is a slippery slope from 
content guidelines to national standards. The Board's 
recommendation to align newly-developed content guidelines with 
the NAEP test and NCLB-related assessments would create a 
situation in which these guidelines really are not voluntary, 
since all states are mandated under federal law to participate 
in these assessments.
    As a result, we believe that it is absolutely critical for 
this plan to emphasize flexibility for local and State 
education agencies, to choose curricula, and to design 
standards that best meet their needs.
    Lastly, let me say that while this report addresses many 
important areas, it does not mention one significant need: the 
provision of hands-on, up-to-date, laboratory equipment and 
facilities which are critical in order to successfully 
implement a relevant STEM program. Failure to provide such 
resources will negate the efforts to implement high-quality 
standards and well-prepared teachers.
    In conclusion, I would like to say that the Board's Action 
Plan is an important contribution to the national dialogue on 
STEM education. Greater federal leadership is needed in this 
area if we are to meet the challenges of the future. Congress 
can make an important contribution by providing school 
districts with the models, tools, incentives, and resources 
that they need to improve STEM education in their communities.
    I thank the Committee for this opportunity to testify here 
today, and I look forward to your questions.
    [The prepared statement of Ms. Gayl follows:]
                Prepared Statement of Chrisanne L. Gayl
    Chairman Baird, Ranking Member Ehlers, and Members of the 
Subcommittee, thank you for the opportunity to testify on the National 
Science Board's (NSB's) proposal to improve STEM education.
    My name is Chrisanne Gayl. I am the Director, Federal Programs at 
the National School Boards Association. Our association represents the 
Nation's 95,000 local school board members.

Big Picture

    First, let me express our appreciation for the Committee's 
leadership in this area. Science Technology Engineering and Math (STEM) 
education is an important part of the education and skills that 
students need to become productive adults and to compete successfully 
in the 21st century workforce.
    As you know, the Bureau of Labor Statistics has estimated that the 
U.S. economy will add 1.5 million scientists, engineers, 
mathematicians, and technicians (of varying levels) between 2004 and 
2014.\1\ We must keep in mind, however that while jobs in the STEM 
fields are growing, they still comprise a small percentage of the 18.9 
million jobs that are forecasted to be created in the U.S. economy.\2\
---------------------------------------------------------------------------
    \1\ BLS, Occupational employment projections to 2014; Monthly Labor 
Review, November 2005.
    \2\ Ibid.
---------------------------------------------------------------------------
    Nevertheless, as our world becomes more globally competitive, 
knowledge-based, and technologically driven, the need for students to 
develop STEM literacy has become more important. Evidence suggests that 
businesses of all types are encountering a need for employees with 
higher-level skills, regardless of the path that they choose after 
graduation.\3\
---------------------------------------------------------------------------
    \3\ ACT, Inc., Ready for college or ready for work: Same or 
different? 2006.
---------------------------------------------------------------------------
    Furthermore, as individuals and as citizens, we are faced with 
decisions every day that demand high levels of understanding and 
judgment. A trip to the doctor, for example, often requires an 
understanding of statistics and analytical ability so we can compare 
the relative merits of particular treatments. As voters, we are called 
upon to make choices about issues regarding science such as global 
warming and stem-cell research.\4\
---------------------------------------------------------------------------
    \4\ Barth, Patte, ``A Common Core Curriculum for the New Century,'' 
Thinking K-16, Vol. 7, Issue 1, Winter 2003.
---------------------------------------------------------------------------
    While the reality is that not all students--not even the majority 
of students--will go into STEM-specific jobs, the need for basic STEM 
literacy has become necessary in order to be productive workers, good 
citizens, and intelligent consumers. As responsible stewards of our 
children's future, our education system should be designed to provide 
students with the high-level skills they will need if they choose to 
pursue STEM-specific career paths, as well as adapt to the changes that 
our society demands in order to remain effective and relevant in the 
21st century.
    Throughout the country local school boards have been working to 
strengthen STEM education in a number of ways--through the integration 
of new technologies into the classroom, especially in subjects such as 
math and science where these tools are core to their real world 
application and simulation, offering more online learning 
opportunities, and increasing math and science course requirements.
    Many school districts have also increased their offering of 
rigorous Advanced Placement (AP) courses. Research has shown that 
students who take AP courses are more competitive with their 
international peers on international assessments, and are more likely 
to pursue higher education degrees in science, technology, engineering 
and math.\5\
---------------------------------------------------------------------------
    \5\ College Board, Advanced Placement: Report to the Nation 2007. 
http://www.collegeboard.com/prod<INF>-</INF>downloads/about/
news<INF>-</INF>info/ap/2007/2007<INF>-</INF>ap-report-nation.pdf
---------------------------------------------------------------------------
    Congress can help to foster these educational successes by 
demonstrating greater leadership at the federal level. The National 
Science Board's Action Plan offers some useful suggestions of ways that 
the Federal Government can elevate the importance of STEM education and 
enable opportunities that will enrich teaching and learning in these 
fields. As an example, the Federal Government is in the unique position 
to assemble the profound knowledge base that exists within these 
disciplines and to disseminate information on effective tools, models, 
and practices that will strengthen STEM education. Additionally, 
Congress can provide valuable incentives to improve teacher quality and 
spur local investment in this area.
    If I leave the Committee with just one overall impression today I 
hope it is this: We believe that this Action Plan is a step in the 
right direction for promoting high-quality STEM education in the U.S. 
Its emphasis on increasing public appreciation for and understanding of 
STEM education is consistent with the key work of local school boards 
to engage their communities and ensure support for these initiatives. 
In particular, the Plan's focus on ensuring an adequate supply of well-
prepared and effective STEM teachers is absolutely essential to 
enhancing student learning in these fields.
    However, we caution the Committee against some of the 
recommendations in this plan that could ultimately erode State and 
local control over education, which is the foundation of our education 
system and critical to public support for any initiative. The top-down 
approach of creating a national council to set academic content 
guidelines and teacher certification requirements is troublesome for 
school board members who value local flexibility and must deal with the 
day-to-day operational challenges of implementing these policies.
    Furthermore, let me say that while the report addresses many 
important areas, it does not mention one significant need, the 
provision of up-to-date laboratory equipment and modern classrooms, 
which are necessary to successfully implement a relevant STEM program. 
Such facilities are essential for students to be able to experiment, 
create, and get a hands-on feeling for what the world of work is like 
in these fields. This scale of modernization will require a large 
infusion of capital and clear design guidelines if America's STEM 
classrooms are to be appropriately outfitted for the type of 
instruction that is envisioned in this report. Failure to provide the 
adequate resources to create appropriate classrooms for STEM teaching 
will negate the efforts to implement high-quality standards and provide 
well-prepared teachers.
    In the remainder of my testimony, I would like to highlight a few 
of the key recommendations contained in the Action Plan, which are of 
particular interest to local school boards.

Qualified Teachers

    NSBA strongly supports the focus on ``developing human capital'' in 
this plan to meet the need for an abundant supply of well-prepared 
teachers in STEM fields, a sine qua non in improving our education 
system.
    As the report rightly notes, local school systems encounter many 
barriers to recruiting and retaining high-quality STEM teachers. The 
clear link between teacher quality and student achievement, coupled 
with estimates that two million new teachers will be needed in the next 
decade to address retirements and turnover, argues for a sustained 
commitment and partnership among all levels of government to build and 
maintain the teaching force needed to make a positive difference for 
America's students.
    NSBA supports an array of incentives, many of which are mentioned 
in this report, to recruit and retain teachers in high-need STEM 
subjects and other areas, including performance-based pay, bonuses, 
alternative certification programs, and student loan forgiveness. NSBA 
believes that the best approach to increase teacher quality is to 
leverage the resources of the Federal Government to encourage the 
creation and expansion of a range of strategies, many of which states 
and school districts already are implementing.
    In addition, NSBA agrees that Congress should help strengthen 
teacher preparation programs within universities to ensure appropriate 
alignment with academic standards and foster greater accountability 
among these programs. Clearly, we must ensure that teachers have the 
content knowledge that their students will be expected to know. We 
would suggest, however, that teacher preparation programs be aligned 
with existing State academic standards, which all states are required 
to have in place under No Child Left Behind, as opposed to ``national 
content guidelines'' that would be developed by an independent STEM 
education council.
    Given that the majority of tomorrow's teachers are already in 
today's classrooms, we also believe that more attention should be given 
to developing and bringing-to-scale high-quality professional 
development programs for existing teachers. These programs can play an 
important role in updating teachers' knowledge and skills in their 
subject area and have been shown to have a positive impact on teacher 
retention.

National STEM Council

    NSBA believes that the creation of a STEM education council could 
be helpful in coordinating various STEM programs and initiatives 
throughout the Federal Government, disseminating best practices, and 
developing tools and resources that educators can use in the field. 
However, as drafted, NSB's plan calls for the creation of an 
independent, non-Federal National Council that would have significant 
powers beyond these tasks and considerable influence over the direction 
of our nation's education policy.
    For example, the council would: coordinate the development of 
national standards for STEM teacher certification, coordinate and 
assist with the development of national STEM content guidelines, and 
help states establish and strengthen P-16 councils.
    NSBA believes that giving such responsibilities to an independent 
national council is in direct conflict with our locally and 
democratically-controlled public education system. Such an entity would 
divest State and local governments of their responsibilities and 
authority over public education, and institute a governance structure 
with little or no oversight or accountability that would be responsible 
for high-level decision-making.
    Although the Board acknowledges in their plan that local and State 
governments ``bear the ultimate responsibility in the Nation's system 
of public education,'' there seems to be a fundamental mismatch between 
what the plan says about the responsibilities of local government and 
what it is proposing in terms of the overall scope and mission of the 
council. It is worth noting that there are no permanent seats on the 
council to be filled by local school board members who are local 
governing officials. Yet, this entity would have significant 
responsibilities to coordinate among Federal, State, and local 
governments and impose its recommendations on such groups.

National Content Guidelines

    As noted, one of the council's responsibilities would be to 
``coordinate and assist with the development of national STEM content 
guidelines for pre-K-12.'' NSBA believes that the dissemination of 
content guidelines may be helpful in enriching math and science 
curriculum and setting clear learning expectations for students, 
however, we caution that it is a slippery slope from content guidelines 
to national standards.
    The Board's recommendation to align these newly developed content 
guidelines with metrics, including the National Assessment of Education 
Progress (NAEP) tests and NCLB-related assessments, would create a 
situation in which these guidelines really aren't voluntary since all 
states are required to participate in NAEP and to administer math and 
science assessments for particular grades under No Child Left Behind. 
As a result, we believe it is absolutely critical for this plan to 
emphasize that these guidelines should allow flexibility for local and 
State education agencies to choose curricula and design standards that 
best meet their needs.
    As the Board notes in its plan, considerable work has already been 
done by a number of groups including the National Council of Teachers 
of Mathematics, the National Science Teachers Association, and the 
Association for the Advancement of Science through its Project 2061, to 
develop content guidelines or voluntary standards in various 
disciplines. Therefore, we need not reinvent the wheel. However, 
consideration should be given as to how such work fits within the 
larger context of ensuring that students are college and workforce-
ready.

Conclusion

    In conclusion, I would like to say that the National Science 
Board's Action Plan is an important contribution to the national 
dialogue on STEM education. Greater federal leadership is needed in 
this area if we are to meet the challenges of the future. The National 
School Boards Association embraces the plan's priority goals--to ensure 
greater coherence in the STEM education and to ensure that students are 
taught by well-qualified, highly-effective teachers. However, we remind 
the Committee that such policy goals must be workable and practical at 
the local level in order for them to succeed. Congress can help to make 
this happen by providing school districts with the models, tools, 
incentives, and resources they need to improve STEM education in their 
communities.
    I thank the Committee for this opportunity to testify here today. 
Local school board members are encouraged by the attention that this 
committee has given to improving STEM education in the U.S. and the 
work that it has done to help ensure our children will be able to 
compete effectively in global economy. We look forward to continuing to 
working with you on this important issue.

                    Biography for Chrisanne L. Gayl
    Chrisanne Gayl joined NSBA in 2005 as Director, Federal Programs 
where she is responsible for developing and implementing legislative 
strategies to advance the federal policy interests of local school 
boards. Her work focuses on a variety of issue areas including 
education technology, workforce competitiveness, school health, and 
early childhood education. Before joining NSBA, Chrisanne was the 
Policy Director at the Workforce Alliance where she oversaw the 
organization's direct and grassroots advocacy on federal legislation 
and national funding initiatives related to workforce education and 
training. She also served as the Federal Representative for former 
California Governor Gray Davis, representing the Governor in 
Washington, DC on federal education policy, as well other social 
issues. Chrisanne holds a Master's degree in Public Policy from 
Georgetown University's Public Policy Institute and received her 
undergraduate degree from Colby College in Waterville, Maine.

    STATEMENT OF DR. ROBERT J. SEMPER, EXECUTIVE ASSOCIATE 
 DIRECTOR, THE EXPLORATORIUM, REPRESENTING THE ASSOCIATION OF 
                 SCIENCE AND TECHNOLOGY CENTERS

    Dr. Semper. Good morning, Chairman Baird, Ranking Member 
Ehlers. It is my pleasure to be testifying on behalf of the 
Association of Science Technology Centers in response to the 
National Science Board's Action Plan. I am Executive Associate 
Director of the Exploratorium, a museum in San Francisco, 
representing 348 members of ASTC. ASTC members reach 58 million 
children and adults annually in bringing science and technology 
and mathematics and engineering to their communities.
    It is fitting today that we are having this meeting 50 
years after Sputnik. At that time an investment was made by the 
Federal Government to change STEM education. Decisions were 
made, and things got done. I am a personal product of that 
experience. I left fifth grade a happy-go-lucky kid, came back 
in sixth grade and found new equipment in the hall, a new 
textbook in front of me, and most importantly, a new teacher 
who had been trained by an NSF program to take me under her 
wing and to teach me science. All along after that through 
programs in college and graduate school I was supported by 
nationally-supported endeavors about science education, and it 
is a rare opportunity for me to actually thank the government, 
representatives of the government for that opportunity. Thank 
you very much for me but also for many other people in this 
country.
    What is different 50 years later? Well, in many respects 
some of the things are the same, but one big thing is 
different. I, or my representative, would not have been here, 
because science centers did not exist 50 years ago. There were 
science museums doing good work, but the field of science 
centers developed actually as a result of the investments made 
50 years ago in science education, again, through agencies like 
the National Science Foundation and other agencies like NASA.
    And why that is important is I think we have a new 
landscape now to actually support new endeavors in STEM 
education. The rise of science centers, Pacific Science Center 
(Seattle) is an early one, and of course, OMSI (Portland) and 
The Exploratorium and others are key elements of the 
development of the out-of-school movement in science education, 
which includes science centers but also media, the Internet, 
and other kinds of after-school programs.
    These programs offer a supporting structure for science 
education that did not exist before, and it is one of the 
reasons why the notion of having in the NSB report a coherent 
structure and a place at the table for these kinds of agencies 
is so critical.
    This is really important if we take our view of science 
education from the kids' eye view and not the institutional eye 
view. If we think of our kids, they basically are in school, 
but they also go to museums, they go to museums, they watch 
media, they go home and talk with their parents about science, 
they have interactions with peers, they go to after-school 
programs. This is really important if you realize only 1,000 
hours of science instruction is provided K-12 to our students. 
That number, 1,000 hours, is not going to change. That is one 
half of an adult's working year. We have to look at the entire 
system if we are going to actually look at the questions of 
improving STEM education.
    Therefore, ASTC and the science center community supports 
both of the priority recommendations included in the plan 
presented by the National Science Board; the coherence in the 
Nation's STEM education system and recommendations assuring an 
adequate supply of well-prepared and highly-effective teachers. 
And I want to point out that science centers are actually able 
to play a role in meeting both of these recommendations.
    First the coherence issue. It is critical that we engage 
all the stakeholders in this process, but, of course, all of 
these stakeholders have different funding strategies. The main 
school systems are funded by states and local funding with 
federal funding coming through the states down to the local 
schools and school districts. The science centers community, my 
community is funded by local contributions, by philanthropic 
contributions, by people paying tickets, money at the door, and 
also by national programs that we can compete for. These two 
areas do not come in contact very well, and we need to have a 
place of engagement so we can understand who can do what best 
and how these programs could come together.
    Science centers, for example, are effective in providing 
research on learning and educational practices. For example, 
the Center for Informal Learning at School at my organization 
is doing research on how museums can participate in the STEM 
education process broadly.
    They also are involved in developing human capital in terms 
of teacher development. In fact, science centers were involved 
in producing about 25 percent of the elementary teacher in-
service training a number of years ago, and we have a number of 
teachers, for example, at my institution from around the Bay 
Area coming to workshops and becoming a part of a teacher home 
at the Exploratorium.
    And most importantly science centers also can provide 
support for the public appreciation of science and of science 
education. There are opportunities for a forum for discussion 
in communities about what science education should be like.
    We are also supportive of the inclusion of science centers 
and other parties in the State P-16 councils. In California our 
council includes representatives from districts, from 
universities, from community colleges, from workforce, but, for 
example, it does not include representatives from libraries, 
from museums, from media, all a part of the solution to the 
problem. If we can get coordinated and integrated, I think we 
can maximize the investment that is being made in each of these 
sectors in a strong way.
    Looking at the teacher issue, we completely agree that 
well-qualified teachers is critical if we are going to reach 
under-served students, and there is a lot of research that 
shows under-served students get under-qualified instruction. 
That has to change. One way to address this would be to 
actually develop new forms of professional development for 
teachers to go beyond the traditional university model, school 
district model, to think of alternatives that might include 
institutions like ours in the science center world, or in other 
worlds that could help make a new method of development of 
teacher education similar to what was done in medical school 
100 years ago in terms of professional development.
    And finally I would like to address the question of 
roadmaps. It is clear that we need a roadmap. We need a 
national roadmap for science education in this country. NSF 
needs an internal roadmap because we are really faced with an 
engineering problem. How do we engineer improvement in science 
and science education at large? And a roadmap that is clear and 
concise so people can find their role would be very powerful in 
that regard.
    Thank you for your interest, and I look forward to 
answering your questions.
    [The prepared statement of Dr. Semper follows:]
                 Prepared Statement of Robert J. Semper
    Chairman Baird, Vice Chairman McNerney, Ranking Member Ehlers, and 
distinguished Members of the Subcommittee, thank you for the 
opportunity to discuss the findings and recommendations contained in 
the National Science Board's Action Plan for STEM Education. My name is 
Rob Semper and I am Executive Associate Director of the Exploratorium, 
a Museum of Science, Art and Human Perception in San Francisco. The 
Exploratorium is one of over 348 science centers and museums in the 
United States that are members of the Association of Science Technology 
Centers (ASTC). These institutions offer critical science, technology, 
engineering and mathematics education in informal settings to over 58 
million children and adults every year including specific programs for 
students and teachers. I have been asked to represent the views of the 
field of these informal science education institutions to the NSB's 
Action Plan.
    It is fitting that this hearing is occurring 50 years to the week 
that this nation was shocked by the launch of Sputnik into addressing 
the issue of STEM education in a comprehensive way. As a result of that 
experience an investment was made that made a difference and that 
difference has been demonstrated by the significant advancement in STEM 
leadership that this country has enjoyed since that time. Building on 
the existing science education reform work already underway, the 
national resolve to invest in STEM education resulted in new curriculum 
being developed and disseminated, enhanced professional development of 
teachers being provided, and the launching of significant efforts to 
promote public engagement in science. New science education research 
and development organizations were created to support this work. A STEM 
education improvement infrastructure was created. We called on our 
universities, our scientists and our schools to work together to 
improve the situation and they did. In short the country was galvanized 
to do something about the problem.
    I am a product of the tremendous effort and investment that was 
made at that time to improve science education in this country. Upon 
returning to school to start my sixth grade class, I was met with the 
scene of crates of lab equipment being unpacked in the hall, newly 
minted science textbooks and, most importantly, a sixth grade teacher 
who had been trained in an NSF sponsored summer science teacher 
institute who took me under her wing as a budding scientist. Later in 
high school I was taught physics by an Ex Navy nuclear submarine 
engineer who entered teaching through a Department of Defense career 
transfer program and in college I attended a summer NASA undergraduate 
research program where I learned what it meant to be a scientist 
instead of a science student. In graduate school I participated as an 
instructor in an NSF sponsored program to introduce a new self paced 
science curriculum at the undergraduate level and I spend a summer at 
Los Alamos National Laboratory in their graduate student program doing 
exciting physics research.
    I am mentioning all of this not to impress you with my resume but 
to point out that each and every one of these experiences was supported 
by the Federal Government and would just not have happened if there had 
not been strong federal support for STEM education. And in particular I 
want to point out the vital and unique role that NSF played in leading 
and supporting this effort over the years. It was their support of 
quality programs through their rigorous peer review process of 
proposals from universities, schools, museums and education research 
labs that provided the research, development and implementation of much 
of this work.
    Today we are eerily confronting the same concerns as our previous 
generation did in 1957. We perceive a threat to our future, we realize 
that we need to make an investment in STEM education to mitigate this 
threat, and we are asking the Federal Government to help. In many 
respects we might think that we are in the same place as 1957 and 
indeed many of the proposed solutions today might be similar to those 
proposed 50 years ago. But at least in one major respect things are 
quite different. The field that I represent here today simply did not 
exist.
    One of the legacies of the post Sputnik investment in STEM 
education was the creation and widespread dissemination of a new kind 
of educational institution, the science center. These new places were 
born out of the confluence of the investigation-focused science 
education reform movement of the late 1950s and the learner-centered 
educational movement of the mid to late 60s. They borrowed interactive 
exhibits from the science-and-industry museums, the informational 
displays of the Worlds Fair science exhibitions, and the science 
demonstrations common to schools and universities to create new 
institutions that contained collections of ideas rather than things. 
These institutions rode the wave of the de-authoritization of formal 
education--the dramatic shift toward the empowerment of students and 
individuals to be in control of their own learning--that swept through 
the country and the world at that time. The oft-repeated statement by 
Frank Oppenheimer, the Exploratorium's founder, that ``No one flunks a 
museum'' became emblematic of a public education movement that has 
spawned hundreds of science centers and has advanced exhibition 
development in science museums, natural history museums, zoos, 
aquariums, and planetariums worldwide.
    These science centers now form a powerful new community-based 
resource that can play a significant role in advancing STEM education 
nationwide. They serve a significant part of the U.S. population. They 
offer experiences that are rich in science, and as importantly, 
engaging to visitors of all ages. They are repositories of science-
trained staff that help students gain a deeper understanding of 
science, nature and the world around us. They support teacher 
professional development activities for grades K-12 and they develop 
curriculum. They partner with schools, universities, industry and 
community groups to provide STEM education for all citizens. And they 
provide a focus of commitment to science in their community that is 
both respected and accessible.
    For example every year, my organization, the Exploratorium, 
welcomes over 500,000 children and adults to a lively exhibit space in 
San Francisco that is filled with 500 exhibits on topics as diverse as 
light and color, genetics and the brain. We provide the public access 
to the latest images from the Mars rover, an opportunity to talk to 
scientists working in Antarctica and the science of skateboard wheels. 
Our audience includes 100,000 field trip students who come from the 
diverse school population of the Bay Area, many of whom are under-
served in STEM. Through the use of the Internet we reach an additional 
18 million kids and adults nationwide with online exhibits and teaching 
tools developed at our institution. Using the exhibits, our 
professional development staff works intensively with over 500 teachers 
a year to develop their science teaching skills and actively support an 
alumni community of over 2,500 Bay Area teachers who use the museum as 
their science home away from home.
    The development over the years of this robust group of science 
centers and museums, along with the expansion of other out of school 
resources such as after-school programs and clubs and science related 
media, is an important part of the solution to advancing STEM 
education. To successfully make the improvement in STEM education that 
we all desire, we will need to make use of all of these opportunities 
due to one sobering fact. The average amount of time that a student 
will spend in school on science throughout their K-12 career is only 
1,000 hours. That is one half of an adult working year. Given the fact 
that there is no realistic prospect of increasing this time due to the 
competing demands on school time, we simply must take advantage of the 
out of school time if we are going to make headway on STEM education.

Response to Specific Questions

    It is with this background as a member of the science center and 
museum community represented by ASTC that I am responding to the 
recommendations of the NSB report and addressing the questions posed to 
me by Chairman Baird.

Does the NSB Action Plan address what you see as the key issues for 
improving STEM education? Are there specific actions or policies that 
you believe are important to improvement of STEM education that are not 
included? What are the principal barriers to achieving the recommended 
changes to STEM education system?

    We support both of the Board's priority recommendations: (1) the 
need to ensure coherence in the Nation's STEM education system; and (2) 
the need to ensure that students are taught by well-qualified and 
highly effective teachers. Our field is pleased that the report 
recognizes the importance of informal science education institutions. 
They are the catalyst for sparking interest in STEM issues at all ages. 
Clearly this interest has overwhelmingly positive future implications 
for workforce development, teacher preparation, science interest and 
literacy and quality of life. However, we are concerned that our field 
is not always considered as part of the solution when the talk turns to 
STEM education.

Priority Recommendation A: Ensure Coherence in the Nation's STEM 
                    Education System

    This is a key issue for improving STEM education because it 
addresses the key barrier to achieving the recommended changes to STEM 
education--recognizing the fact that STEM education is not just the 
province of the schools and therefore bringing all the stakeholders to 
the same table. There are many different things to be gained by this 
coherence but let me give you an example from my own field.
    While our children (and our teachers) experience science in and out 
of school, the systems of formal schooling and out of school learning 
opportunities currently do not have a place to talk with each other to 
develop a coordinated approach. They are funded by different processes 
at the federal, State and local level, they have different (albeit 
complementary) goals and they have different strengths and weaknesses. 
By stepping back and looking at the STEM learning environment as a 
whole with the permanent representation of the informal education 
community on both the proposed National Council and the State P-16 
Councils, we would have the opportunity to develop the needed coherency 
and synergy between these two worlds.
A.1 Actions for Coordination of Key Stakeholders
    This action item is an exceedingly important part of this plan from 
our perspective. Traditionally as private, non-profit organizations, 
science centers get national support for their own educational 
activities from peer reviewed grant opportunities primarily at the NSF, 
NASA, NIH and the Department of Education. They also provide a venue 
for public engagement for the science outreach activities of NSF, NASA, 
NIH, NOAA, the Department of Energy and the associated universities and 
labs receiving these research dollars. They receive most of their 
funding to support their educational work from local philanthropic 
giving, local government funding and institutionally earned income. As 
independent entities they develop their own agenda. Formal education on 
the other had is supported primarily through federal and State funds 
and local taxes that is given to the local education agencies and the 
school agenda is driven by various policy initiatives supported by the 
funders and determined by local school boards and the state. 
Coordination of key stakeholders at the national and State level in a 
system like this is required if one is to develop a synergistic 
approach.
    We support the leadership role outlined for NSF in the report and 
the development of a coherent internal framework for its own work in 
education. Our new century needs leadership in the innovation of STEM 
education for the 21st century with a focus on new ideas for 
instruction, staff development and the use of new technology. Science 
centers are active players in all three domains of identified NSF 
leadership--research on learning and educational practice and the 
development of instructional materials; development of human capital in 
STEM fields, including STEM teachers; and the improvement of public 
appreciation for and understanding of STEM. NSF is a key supporter of 
our field and it is important that informal science education 
institutions maintain an eligibility to apply for funds in each of the 
areas in NSF to continue this work in the future.
    The report's support for the continued development and funding of 
programs that increase public appreciation for and understanding of 
STEM is most appreciated by ASTC and our members, as is the specific 
mention of museums and informal science education learning environments 
in this context. While ASTC agrees that collaboration between all NSF 
directorates and offices should be encouraged in this effort, we 
strongly believe that any such collaboration should not come at the 
expense of the NSF EHR's Informal Science Education program, be it is 
scope or mission. This vital, peer-reviewed program, designed to 
increased interest, engagement, and understanding of STEM by 
individuals of all ages and backgrounds, must remain robust.

A.2 Actions for Horizontal Coordination and Coherence and A.3 Actions 
        for Vertical Alignment and Coherence
    Beyond the national coordination of key stakeholders, science 
centers are key participants in local and statewide STEM educational 
efforts. We appreciate the report's support for including informal 
science education institutions in the newly-created and existing 
statewide P-16 councils. It is important that these councils also 
develop a broader view of the STEM education landscape if they are to 
create coherency in a students' educational life. As institutions we 
interact with students all along the educational continuum from field 
trips through summer classes to an employer of STEM educated staff. In 
some cases our institutions provide facilities and hands on engagement 
that schools just cannot provide. Active participation in the statewide 
dialogue about STEM education will insure a more coordinated approach 
to our offerings and also our ability to provide the many parents who 
visit our places information about high quality STEM education.

Priority Recommendation B: Ensure That Students are Taught by Well-
                    Qualified and Highly Effective STEM Teachers

    The focus on the STEM teacher workforce as a high priority is 
absolutely important. But in addition to the recommendations presented 
in the report I would propose to add one more based on my past 
experience in the informal education field and teacher education. We 
need a program to develop innovative new models for teacher 
professional development, ones that address the issues as dramatically 
as the invention of the teaching hospitals and medical schools did for 
medical professional education at the turn of the last century.
    For example, science centers have historically participated in 
teacher professional development activities primarily through peer 
reviewed proposals to the NSF and the U.S. Department of Education. 
They have made use of their unique environments and scientific staff to 
provide in-depth and ongoing professional development to teachers in 
their region and in some cases they have become a professional home for 
science teachers in their community. The Exploratorium works with 
teachers from 140 school districts that exist in the Bay Area providing 
a consolidated approach to intensive teacher professional development 
for the region. Other science centers such as the Pacific Science 
Center in Seattle operate statewide initiatives.
    But because teacher professional development is currently only 
considered the province of the LEAs and IHEs in current federal and 
State legislation, there is little opportunity for science centers to 
play the lead role in creating new community based teacher professional 
development models. Opening up eligibility for funding as the prime 
award winner to non-profits with the experience and capability to do 
good work is critical if we are to develop alternative approaches. A 
program to actively create new models of professional development will 
lead to the dramatic change in STEM education that we are all seeking.

Is the proposed national STEM education council needed in order to 
implement the NSB's recommendations; can it be made to work as 
envisioned; and can it become self-sustaining? Do you support 
establishing this council? Do you have recommendations for changing the 
proposed structure or function of this council? Furthermore, what role 
do you envision for the council in defining the recommended ``national 
content guidelines''?

    It is clear that a coordinating function at the national level with 
membership of all of the stakeholders is critically needed if we are to 
maximize our investment of resource. Currently there does not exist a 
venue for this discussion that is both specific to STEM and inclusive 
of all of the potential players. This is in addition to the need for 
coordination of Federal Government's response to the issue. Therefore 
ASTC is intrigued by the idea of a National Council for STEM Education, 
and appreciates the Board's recommendation that informal science 
educator should be represented in its membership. We would recommend 
that an informal science educator should hold a permanent seat rather 
that a rotated one, however, especially given the role that informal 
science institutions play in student and teacher education.

What is the appropriate federal role in carrying out the 
recommendations of the NSB Action Plan?

    While many of the reports recommendations concern initiatives that 
are clearly at the State and local level, the fact that much of the 
current funding for the improvement of STEM education comes from the 
federal coffers means that it is an important federal role to establish 
mechanisms to provide coordination amongst the involved parties and to 
develop a STEM education improvement roadmap for the country.
    It is also the federal role to provide the investment in innovation 
for STEM education and the national support for STEM education 
improvement. To this end we would strongly endorse the reports 
recommendation that the National Science Foundation (NSF) exercise a 
significant leadership role in research and development, STEM workforce 
development and public STEM engagement and the Board's recommendation 
that NSF develop an internal agency roadmap toward this end.
    In closing I would like to thank you for offering me the chance to 
testify on this very important issue. I look forward to answering any 
questions that you may have.

                     Biography for Robert J. Semper
    Rob Semper is Executive Associate Director and Director of Program 
for the Exploratorium in San Francisco and is responsible for leading 
the institution's work in developing programs of learning and teaching 
for the public and educators using exhibits, workshops, media and 
Internet resources. Dr. Semper is the principle investigator on 
numerous science education, media and research projects including 
leading the National Science Foundation sponsored Center for Informal 
Learning and Schools, a research collaboration between the 
Exploratorium, U.C. Santa Cruz and King's College, London which studies 
the relationship between museums and formal education. He is also Co-PI 
on the NSF funded Nanoscale Informal Science Education Network, a 
national network of science centers designed to foster engagement of 
the public with the nanotechnology field. He leads numerous research 
and development projects in new media including wireless networks, 
hand-held computing and advanced Internet applications.
    Over the past fifteen years Dr. Semper has guided the development 
of the award winning Exploratorium Website that has explored the role 
of museums in the online world including the development of on-line 
field trips to locations of scientific research. He has been executive 
producer for a number of NSF and NASA supported Webcast/Website 
projects including Origins that provides on-line field trips to science 
observatories worldwide, four Solar Eclipse Webcasts and the Ancient 
Observatories project that originated live from Chaco Canyon and 
Chitzen Itza. Before this, Dr. Semper was a Schumann fellow at the 
Harvard Graduate School of Education and director of the creative 
collaboration between Apple Computer and Lucasfilm Ltd. formed to 
develop interactive multimedia education projects. Previous to this 
since joining the Exploratorium in 1977, he has lead numerous exhibit 
development, teacher enhancement and media development projects focused 
on science education for the public, teachers and students. Dr. Semper 
was elected to be a 2006 American Association for the Advancement of 
Science (AAAS) Fellow and was the recipient of the 2006 NSTA's Faraday 
Award for Science Communication, the 1994 NSTA's Informal Educator of 
the Year award and the 2000 Association of Science Technology Center's 
Award for Innovation for the Exploratorium's leadership in developing 
on-line media. He has served on numerous advisory boards including the 
George Lucas Educational Foundation National Advisory Board and the 
AAAS Committee on the Public Understanding of Science. Dr. Semper has a 
Ph.D. in physics from Johns Hopkins University and was a post-doctoral 
student at Lawrence Berkeley Laboratory and a faculty member at St. 
Olaf College in Northfield, MN before joining the Exploratorium in 
1977.

    Chairman Baird. Thank you, Dr. Semper.

  STATEMENT OF MS. SUSAN L. TRAIMAN, DIRECTOR, EDUCATION AND 
             WORKFORCE POLICY, BUSINESS ROUNDTABLE

    Ms. Traiman. Mr. Chairman, Ranking Member Ehlers, Members 
of the Subcommittee, good morning. I am Susan Traiman, Director 
of Education and Workforce Policy at Business Roundtable, and 
like Dr. Semper a beneficiary of the post-Sputnik investment, 
although I didn't go into STEM, I did have a loan to go to 
college from the National Defense Education Act.
    Thank you for inviting me to testify before you today on 
STEM education and the recent report from the National Science 
Board. I want to thank Dr. Beering and the members of the 
National Science Board for their important work on behalf of 
U.S. STEM education.
    Business Roundtable, as many of you know, is an association 
of chief executives of leading corporations with a combined 
workforce of more than 10 million employees and $4.5 trillion 
in annual revenues.
    Our CEOs are united in their concern about STEM education 
in the U.S. They understand that STEM education is a critical 
underpinning of both national economic competitiveness and 
individual success in the modern workforce.
    From Norm Augustine, who was our taskforce on education 
chairman 11 years ago, to our current education taskforce 
chairman, Art Ryan, the CEO of Prudential Financial, CEOs 
believe that expanding the talent pool of Americans with a firm 
grounding in STEM disciplines is a critical element of the 
innovation agenda the United States must pursue in order to 
remain competitive in the 21st century.
    The National Science Board identifies two central 
challenges to STEM education in the U.S.; insuring coherence in 
STEM learning and insuring an adequate supply of well-prepared, 
highly-effective STEM teachers. Both challenges have been the 
subject of countless reports and federal and State initiatives 
of the past 20 years, and both reflect the overall problems and 
dysfunctions with the K-16 education system in the United 
States or non-system in the U.S., as well as issues that are 
unique to STEM.
    Business Roundtable is in complete agreement with the 
National Science Board that the critical bottleneck in U.S. 
STEM education is the inadequate supply of well-qualified, 
highly-prepared teachers. That is why our member CEOs were so 
enthusiastic about the STEM education legislation moved by this 
committee and enacted as part of the America COMPETES Act. And 
as you well know, the potential impact of this critical 
legislation depends on what happens to its appropriations this 
year and in future years.
    One of the best features of the America COMPETES Act is its 
emphasis on expanding programs that have the demonstrated 
record of success such as the Robert Noyce Scholarship Program 
and the Math and Science Partnership Program. Time and again, 
in fact, since the post-Sputnik years we learn over and over 
that well-intentioned STEM initiatives fail because of 
inadequate attention to teacher preparation and professional 
development.
    From No Child Left Behind to the Higher Ed Act to America 
COMPETES Act, we need to build on lessons learned about what 
will produce results.
    And we also need to be open to new models that address 
issues such as the need to increase compensation for STEM 
teachers despite longstanding resistance to recognizing 
performance or market demands in determining teacher pay.
    Nearly every one of the National Science Board's 
recommended actions for increasing the number of well-qualified 
STEM teachers and improving the quality of STEM teacher 
preparation have been endorsed by Business Roundtable and the 
national business organizations that are partners in Tapping 
America's Potential coalition or TAP, a business coalition 
committed to improving STEM education in the United States. So 
we agree that the Board has it right with respect to teachers.
    When it comes to the Board's recommendations for improving 
integration and coordination of STEM education programs, I 
would urge caution. I should emphasize that the views I am 
about to share with you are my own, since Business Roundtable 
has not come to an official position on this particular aspect 
of the Board's report.
    For CEOs of leading global companies, the idea of 50 
different State-specific standards for what students need to 
know and be able to do in STEM is absurd. U.S. performance on 
international assessments makes it clear that the appropriate 
comparison is not between states but between states and our 
international competitors. In this context State-specific 
standards defy logic, but history and politics often create 
conditions where logic defying outcomes prevail.
    The National Science Board also recommends creating new 
government structures to achieve vertical and horizontal 
integration in STEM education. In an ideal world the Board's 
recommendations might make sense, but I fear they don't account 
for the history and the politics that got us where we are 
today.
    In my written testimony I go into some detail about the 
political and historical pressures that have caused education 
standards wars over the past 20 or so years where very 
reasonable and modest proposals to establish voluntary 
standards didn't result where we want them to be. And that is 
why we are not supporting the creation or development of 
voluntary national standards and assessments as part of the 
reauthorization of No Child Left Behind.
    In the follow up to this I can address some of your 
questions about why the recommendations for this new council 
may create more problems than it attempts to solve.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Traiman follows:]
                 Prepared Statement of Susan L. Traiman
    Mr. Chairman, Ranking Member Ehlers, Members of the Subcommittee. 
Good morning. I am Susan Traiman, Director of Education and Workforce 
Policy at Business Roundtable.
    Thank you for inviting me to testify before you today on science, 
technology, engineering and mathematics (STEM) education and the recent 
report issued by the National Science Board, A National Action Plan for 
Addressing the Critical Needs of the U.S. Science, Technology, 
Engineering, and Mathematics Education System.
    Business Roundtable is an association of chief executive officers 
of leading corporations with a combined workforce of more than 10 
million employees and $4.5 trillion in annual revenues. The chief 
executives are committed to advocating public policies that foster 
vigorous economic growth; a dynamic global economy; and a well-trained 
and productive workforce essential for future competitiveness.
    America's business executives are united in their concern about 
STEM education in the United States. They understand that STEM 
education is the critical underpinning of both national economic 
competitiveness and individual success in the modern workplace. In 
2005, Business Roundtable, together with fourteen other national 
business associations, created the Tapping America's Potential 
campaign, or TAP, with the goal of doubling the number of American 
science, technology, engineering and mathematics graduates with 
Bachelor's degrees by 2015. Business Roundtable members believe that 
expanding the talent pool of Americans with a firm grounding in STEM 
disciplines is a critical element--perhaps the critical element--of the 
innovation agenda that the United States must pursue in order to remain 
competitive in the 21st Century. Several of our members served on the 
committee that issued the National Academies report, Rising above the 
Gathering Storm, and Norm Augustine, the committee's Chairman, is a 
former Chairman of Business Roundtable's Education Task Force.
    Business Roundtable endorsed, and worked actively for the passage 
of, the vital STEM education legislation that originated with this 
committee and which was enacted as part of the America COMPETES Act. 
The potential impact of this legislation depends on what happens to its 
appropriations this year and in future years.
    In your invitation, you have asked me to comment on the National 
Science Board report. My remarks reflect the sentiments I am hearing 
from business leaders, as well as my experience working on these issues 
at the federal, State and local levels.
    The National Science Board identifies two central challenges to 
STEM education in the United States: ensuring coherence in STEM 
learning and ensuring an adequate supply of well-prepared, highly 
effective STEM teachers. Both challenges have been the subject of 
countless reports and federal and State initiatives over the past 
twenty years. And both reflect the overall problems and dysfunctions 
with K-16 education in the United States as well as issues that are 
unique to STEM.
    On Coherence and the recommendation to ``Develop Nation STEM 
Content Guidelines'': For CEOs of leading global companies, the idea of 
50 different State-specific standards and assessments for what students 
need to know and be able to do in STEM is absurd. U.S. performance on 
international assessments such as the Trends in International 
Mathematics and Science Study (TIMSS) and the Program for International 
Student Assessment (PISA) makes it clear that the appropriate 
comparison for education performance is not between states, but between 
states and our international competitors. In this context, State-
specific standards defy logic. But history and politics often create 
conditions where logic-defying outcomes prevail.
    The National Science Board recommends creating new governance 
structures to achieve vertical and horizontal integration in STEM 
education. In an ideal world, the Board's recommendations might make 
sense, but I fear that they do not account for the history and the 
politics that got us where we are today.
    We have been down this road before and our experience suggests that 
caution may be in order. When Business Roundtable first got involved in 
standards-based education reform in the early 1990s, CEOs focused at 
the State level, which is where the primary responsibility for 
education standards resides. CEOs identified nine essential components 
of a successful education system and either joined or created State 
business coalitions to advocate for systemic education policy reform. 
This marked two major shifts for business--first, a move away from the 
``adopt a school'' approach toward changing the State education 
policies that affect all schools and students and second, a move away 
from single silver bullet solutions toward systemic reform with aligned 
policies based on high academic standards for all students. At the 
time, to the extent that states had standards, they tended to be 
minimum competency. While advocating for change at the State level 
during the 1990s, Business Roundtable also endorsed proposals by both 
the Bush (I) and Clinton Administrations for voluntary national 
standards and tests. However, both the Bush and Clinton initiatives 
were resoundingly rejected.
    The actual development of national standards started with math 
through a non-governmental initiative by the National Council of 
Teachers of Mathematics (NCTM) in 1989. Textbook companies quickly 
aligned their materials with the NCTM math standards, and the Federal 
Government funded other professional groups to develop national 
standards in their content areas. The quality of the standards produced 
by these national subject-matter groups varied widely. To reach 
consensus, authors added rather than subtracted standards and many were 
so voluminous that there would be no time left to teach other subjects. 
Meanwhile, states began to develop their own standards in core academic 
subjects, frequently adapting their work from the national documents. 
Similar to the national standards, the quality of States' standards 
was, and continues to be, inconsistent.
    By the mid-1990s, criticism from across the political spectrum 
about the quality and content of the standards--both national and 
State--threatened to end standards-based reform. To rescue the 
movement, governors and business leaders created Achieve in 1996 to 
help states benchmark and improve their standards, as well as align 
them with assessments and accountability. It was clear at that juncture 
that State level standards were the only politically viable approach, 
but business leaders hoped that comparisons of quality and 
identification of State and international exemplars by Achieve would 
help push states in a common direction.
    Shortly before President George W. Bush was inaugurated in January 
2001, he invited a group of Business Roundtable CEOs to a meeting where 
he told them that his first initiative would be federal education 
legislation and asked for their support. Business Roundtable helped 
lead the business community's involvement in shaping and passing the No 
Child Left Behind Act (NCLB). One of the most controversial parts of 
the bill required all states to participate in the National Assessment 
of Educational Progress (NAEP). Business leaders understood that NAEP 
was necessary to provide a common metric that enabled comparisons 
between states because NCLB accountability was based on states' own 
standards and tests. During the debate, Members of Congress were 
assured that NCLB would not lead to national standards and tests. 
Republicans, in particular, sought that clarification because they 
viewed national tests as a Clinton idea, forgetting that the first 
proposals for national testing and federal funding for the development 
of national standards in core academic subjects happened under the 
leadership of President George Herbert Walker Bush and then Secretary 
of Education Lamar Alexander. So NCLB as originally passed reinforced 
the role of each state to develop its own standards and assessments, as 
well as its own definition of proficiency and cut score for proficiency 
on its own test.
    Just last week, a new analysis of where 26 states set the 
proficiency bar by Northwest Evaluation Associates and the Thomas B. 
Fordham Foundation revealed wide variations between passing scores in 
reading and math across the states. That math should be easier in one 
state than another is bizarre in a global economy.
    Although it continues to be absurd in our international economy for 
states to have different standards in reading and mathematics, the 
business community is not currently promoting the development of 
voluntary national standards and assessments as part of the 
reauthorization of NCLB. To put it simply, we do not believe that 
federal involvement at this juncture would be helpful in moving a 
process that is gaining ground at the State level. Working with 
Achieve, nine states are collaborating on the development of a common 
end-of-course test for Algebra 2. Thirty states are working to align 
their requirements for high school graduation with the expectations of 
higher education and the workplace. For now, the best approach is to 
include incentives in the reauthorization of No Child Left Behind for 
states to raise and align their standards and assessments so that 
students graduate from high school ready for post-secondary education 
and the 21st century workforce, and then backward map those standards 
for each grade so that they are vertically aligned.
    It is important for the U.S. to get to ``national content 
guidelines'' or ``voluntary national standards'' or whatever euphemism 
is ``politically correct'' for national standards. However, I believe 
that a federally-initiated effort under the purview of a National 
Council for STEM Education is likely to be counterproductive, at this 
point, in light of the history and politics that continue to surround 
this issue. It also is likely to produce guidance that has not 
realistically addressed the tradeoffs in establishing priorities for 
what students need to know and be able to do that will be essential for 
schools that also need time to teach history, English, foreign 
languages, the arts and other important content.
    You have specifically asked for my view on the recommendation to 
establish a STEM education council. Business Roundtable does not have a 
position on this matter but, for myself, I am skeptical. Someone once 
said that collaboration is an unnatural act between non-consenting 
adults. People also tend to be willing to collaborate if it is with the 
other person's money. I am all for more coordination and collaboration 
between federal agencies with responsibility for STEM education but it 
is difficult to enforce meaningful collaboration without budget 
authority. I am not convinced that a new layer of coordination with no 
real authority will improve the situation. Also, many of the worthwhile 
recommended activities could be accomplished within the existing 
mission of agencies.
    On STEM teachers: Business Roundtable couldn't agree more that the 
critical bottleneck in U.S. STEM education is the inadequate supply of 
well-qualified and highly prepared STEM teachers. That is why our 
member CEOs were so enthusiastic about the STEM education legislation 
moved by this committee and enacted as part of the America COMPETES 
Act--because it focused on producing more well-qualified STEM teachers. 
One of the best features of the legislation is its emphasis on 
expanding programs that have a demonstrated record of success, such as 
the Robert Noyce Scholarship program, the Mathematics and Science 
Partnership program, and the Science, Technology, Engineering and 
Mathematics Talent Expansion Program (STEP), also known as the ``tech 
talent'' program at NSF. Time and again--in fact since the post-Sputnik 
years--we learn over and over that well-intentioned STEM initiatives 
fail because of inadequate attention to high-quality teacher 
preparation and professional development. From No Child Left Behind to 
the Higher Education Act to the America COMPETES Act, we need to build 
on lessons learned about what will produce results.
    Nearly every one of the National Science Board's recommended 
actions for increasing the number of well-qualified STEM teachers and 
improving the quality of STEM teacher preparation have been endorsed by 
Business Roundtable and the national business organizations that are 
partners in the TAP coalition. The July 2005 TAP report makes specific 
recommendations that are very similar to those of the National Science 
Board, including:

        <bullet>  Promoting market- and performance-based compensation 
        and incentive packages to attract and retain effective STEM 
        teachers;

        <bullet>  Creating professional development and technical 
        assistance to fill gaps in teachers' content knowledge; and

        <bullet>  Establishing incentives for colleges and universities 
        to strengthen preparation programs for prospective STEM 
        teachers.

    In conclusion, Business Roundtable is on the same page as the 
National Science Board in terms of the depth and urgency of the problem 
with regard to STEM education in the United States. Like the Board, 
Business Roundtable believes the highest priority for STEM education 
policy should be recruiting, training and retaining many more well-
qualified STEM teachers.
    I would like to take this opportunity to thank Dr. Steven Beering 
and the members of the National Science Board for their important 
efforts on behalf of U.S. STEM education. Business Roundtable looks 
forward to working with the Board to strengthen U.S. STEM education and 
support NSF's STEM education programs.
    Mr. Chairman, Ranking Member Ehlers and Members of the 
Subcommittee, thank you for the opportunity to testify today.

                     Biography for Susan L. Traiman
    Susan Traiman is Director of Public Policy at Business Roundtable 
where she oversees the Roundtable's work with chief executive officers 
of leading corporations interested in improving education performance 
and workforce competitiveness in the United States. Recently cited as 
``the most influential chief executive lobbying group in the U.S.'' by 
the Financial Times, Business Roundtable members are at the forefront 
of public policy, advocating for a vigorous, dynamic global economy. 
Currently the Roundtable, working with fourteen other national business 
organizations, is leading the ``Tapping America's Potential'' campaign 
to double the number of science, technology, engineering and 
mathematics graduates with Bachelor's degrees by 2015.
    Prior to joining Business Roundtable, Ms. Traiman was Education 
Policies Studies Director at the National Governors Association where 
she worked with governors on the first National Education Summit and 
the development of National Education Goals. She also was a senior 
associate with the U.S. Department of Education's Office of Educational 
Research and Improvement where she served on the staff of the National 
Commission on Excellence in Education and contributed to its landmark 
1983 report, A Nation at Risk. Before coming to Washington, D.C., she 
worked at the State level for a regional technical assistance center 
and at the local level as a seventh grade social studies teacher.
    Ms. Traiman has a B.A. in American Civilization and M.S. in 
Education from the University of Pennsylvania.

                               Discussion

    Chairman Baird. I thank the witnesses for a very diverse 
set of perspectives on this issue, and I commend the staff for 
having put together a group of folks with different 
perspectives from different important bodies.
    I will recognize myself for five minutes, and then we will 
proceed with questions from other Members of the panel.
    One of the issues that puzzles me is that we, when we look 
at our nation's competitiveness with other countries, national 
testing, virtually all the countries that we are trailing 
behind have national standards and national curricula. I am a 
ski instructor and also learned to scuba dive recently, and I 
will tell you, my understanding of both those areas of 
recreational pursuits is that wherever one goes in the country, 
if one is going to be a PADI-certified diver, all the divers 
all across the country got similar training. And so too with 
ski instructing. Now, there will be individual variations, and 
you get sometimes good teachers, sometimes bad, but if you go 
through a PADI diving course, wherever you are in the country, 
those instructors had a similar curriculum, you have a similar 
book all across the country.
    It puzzles me that we can't seem to get around that. To be 
perfectly blunt I think local control is a shibboleth but not a 
policy. And so I don't, I want to raise that question, and the 
vision I would ask is we talk about, and all of you said in a 
degree that teacher training is the core, and yet what are we 
training the teachers for? Are we training a teacher in 
Colorado to not teach in Iowa? Are we training a teacher in 
Iowa to not teach in Wisconsin?
    And I want to throw that out there. I am an advocate of at 
least exploring very seriously this notion of some form of 
national curriculum at least on a voluntary basis in science 
and math education, and I am interested, I will just throw that 
out there, in the pros and cons of that. Why can't we do it, 
why shouldn't we do it?
    Dr. Fennell?
    Dr. Fennell. Well, I would like to speak in support of your 
frustration, not that you are frustrated, but I see the same 
frustrations. We have at the moment 49 of our 50 states that 
have curriculums out there, in particular Pre-K through eight 
mathematics, and they range from somewhere in the 30 objectives 
all the way to over 100, depending upon how you count. And yet 
if you get underneath that, I don't know anybody in this room 
or anywhere else who wouldn't want elementary-age children to 
know how to add and subtract well and similarly with 
multiplication, division, and later on be pretty proficient in 
their work with fractions and so forth, all leading to algebra.
    Our work with the Focal Points, our work with now close to 
half of the states in this country, my work with the National 
Math Panel where we are pretty close to suggesting benchmarks 
for all students as they move into algebra is pretty important. 
If we want to be competitive with those other cultures that you 
alluded to, if we want to make sure our kids are ready for 
higher-level mathematics, if we would like more students ready 
for a math-intending, science-intending career, that has to 
happen.
    Ms. Gayl. I would like to just address that on behalf of 
local school boards. We would say that as a Nation of 300 
million plus individuals and 50 million school children with a 
vast array of resources and differences of opinion, that we 
need to allow room for experimentation in curriculum and 
instruction. And at NSBA we don't believe in a one-size-fits-
all approach. We think it is very important to allow for local 
flexibility so that those closest to the ground who are in our 
classrooms, teaching our students can stress particular 
priorities and values that exist within their own communities.
    Ms. Jeffrey. You will notice in my testimony I did not say 
I didn't support national standards. What I mentioned is I 
didn't think this was the appropriate body to move towards 
that. I do believe that there probably is a time and a place, 
and this may very well be the time and place, by which there is 
some national consensus about what children or students should 
know and be able to do.
    At the same time, I believe there must be a great deal of 
flexibility for states and local school districts to really be 
able to raise their expectations beyond perhaps what a national 
expectation might be, but in that they should be voluntary, at 
least at the beginning, because it takes a long, long time to 
integrate into curriculum align curriculum and really do the 
work appropriately.
    Chairman Baird. Do you feel that, Ms. Jeffrey or others, 
the work that has been done, I mean, we talk a lot about we 
need research, we need trained teachers. You have got some good 
models. I know our state does. Many other states are doing, 
many local school boards, and yet we seem to not believe that 
we can say, look. ``You do it this way, it is working for you, 
can't we share that idea with another curriculum? Can't we look 
what the experts in mathematics are saying, and use that?''
    But you are saying some other body might be the way or some 
other way to get at that.
    Ms. Jeffrey. Well, what I am saying is, for instance, we 
have the Focal Points from the National Council of Teacher of 
Mathematics. I think it is a great document, and when we co-
chaired, I co-chaired the CCS Math and Science Task Force, we 
referred to that document as something that should be basically 
a foundation for states to really look at as they constructed 
their own standards and their own curriculum.
    So I think much of the work has been done, and we just need 
to draw a consensus across what this really needs to look like.
    Chairman Baird. I am going to yield, we will get back, you 
will have a chance. Dr. Ehlers may follow a similar line, and I 
would yield, recognize him for five minutes.
    Mr. Ehlers. Well, thanks for the introducing the topic. 
There will be another two hours on that.
    It was just interesting listening to the different 
perspectives that emerge, and this is something that is 
discussed a lot around here. And I was impressed by your use of 
the word, chivalrous. I didn't realize you were an Old 
Testament scholar.
    But, really, that is, I think, an apt description, because 
that is what it is in the Congress. Just, we, no national 
standards, no national standards, and I have introduced a bill 
on voluntary standards, and even that, everyone characterized 
it as a bill to create national standards, which it doesn't, 
but it certainly is a step in that direction.
    The question I ask myself is, you know, there is a small 
town in southwestern Minnesota, roughly 1,000 population, and 
it is, the name is Edgerton. It has been around quite awhile, 
it was a farming community for many years, and you recall about 
1880, 80 percent of our population was farmers. You get to 
1920, or less, actually about 1907, you know, only a hundred 
years ago, it was still about 60 percent agriculture. It was 
very easy for the local board to decide on a good curriculum 
because there was very little movement out of the community.
    But today that community sends people all over the world. I 
happen to come from that community. I meet friends from that 
community. One good friend who taught at Yale, another one who 
is teaching in Pennsylvania at a university. A lot of them are 
farmers, a lot of them have moved to Minneapolis, are working 
in the shops there, the factories.
    It is a different world today, and to say that the local 
school board has to have final, absolute control over 
curriculum is thinking 100 years ago. I am sorry, Ms. Gayl, but 
it is a different world.
    What makes it even more different now is our competition in 
the world with all the over countries. And if you look at the 
TIMS scores, the PISA scores, all the international scores 
comparing our high school graduates with other countries, then 
look at the list and look at who is at the top of the list, 
they are small, homogeneous countries who have the same program 
throughout the entire country. It just aids in teaching.
    And as you know, I used to teach, and I also worked a lot 
with elementary schools and with the kids. First of all, Mr. 
Fennell, I thank you for bringing up the role of parents. It 
has always bothered me that all these reports we read ranging 
from a nation at risk onward, they don't mention the role of 
the parents, but in my experience working with the schools, the 
single biggest factor in the success of a student is to have at 
least one interested and involved parent at home. That is 
crucial.
    But when you get to the curriculum, because of the mobility 
of the country, 1880, in Edgerton, Minnesota, if one percent of 
the population moved over the course of five years, that was 
news. That made the local newspaper. But today's world the 
average family moves every four years, and it is very easily 
possible for a student, a young child to be in a school in the 
fall semester and studying fractions in math, and then around 
Christmastime the family moves to another school system, which 
studies fractions in the spring. The student gets a double dose 
of fractions, but if these schools in their other semesters 
were teaching percentages or something like that, the student 
never learns it. It is absurd. There has to be at the very 
least we have to have uniformity of sequence, and I don't 
consider that national standards. I consider that national 
agreement. Let us accommodate to our changed world, people 
move, let us make sure they all get the same subject in the 
same semester so that when students move, it doesn't really 
matter.
    That is particularly true in an urban area such as one I 
represent. I have talked to school principals. In fact, I was 
talking to one school principal once. He had a student who had 
transferred four times in one year, and it is possible in my 
particular area because of the structure a student can move 
within a one-mile area at most and still be in four different 
school systems with four different moves. We clearly have to 
address the problem.
    And maybe you don't like my bill, maybe you don't like 
other proposals, but we have to address the problem. Now, I 
would be interested in hearing any--well, I can't. My time is 
up.
    Chairman Baird. I will yield the gentleman additional----
    Mr. Ehlers. Well, I gave the sermon. Now it is time for the 
call if any of you want to comment.
    Ms. Traiman. Business leaders couldn't agree with you more. 
As I said, it is absurd for each local community to make these 
decisions, but going in this direction doesn't mean each local 
community teaches everything in the same way. If a community is 
near a river, a community is near an ocean, a community is in 
an urban area, they may teach the same concepts in a very 
different way.
    But the question before us is what role should the Federal 
Government have. So if there is agreement we need to move in 
this direction, the judgment that we have made is that right 
now if the Federal Government got involved, it would cause us 
to have more controversy and less consensus moving in this 
direction.
    And so I am totally making this up but if you had a choice 
between the Bill and Melinda Gates Foundation moving this 
forward and the Federal Government moving this forward, and I 
have no insight into the Gates Foundation, the better direction 
right now in terms of our politics would be to not have the 
Federal Government involved.
    Chairman Baird. So after November of next year presumably 
would be a superior time I would----
    Mr. Ehlers. Well, since you said you were just making that 
up, maybe you belong in the Congress as a matter of fact. I 
think, let us just clarify this, and then I will yield.
    I think the issue is sequence and concepts. If you get 
agreement on those, that goes probably 80 to 85 percent of the 
way. Furthermore, I don't want the Congress to make the rules. 
Our bill gives it to NAGBE. Maybe you have a better choice to 
make it, but I think the government should be out. We are just 
saying let us see if we can't develop a national consensus to 
at least have the same sequence and teach the same concepts in 
that sequence.
    Thank you.
    Chairman Baird. I think Dr. Ehlers and I are both of a 
position that, where if you are a parent and you move to 
another school district, you need to not feel like your kid is 
going to come out of sequence and similarly, if you are a 
teacher and you are moving to a different school area or you 
got trained in one university and you teach in a different 
state, you don't have to relearn everything. The inefficiencies 
of that for our economy and for our kids' learning strike us as 
just wasteful in a time when we can't afford to be inefficient 
in facing global competition.
    Dr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman. I have to say I am 
deeply appreciative of the discussion on national standards.
    But Dr. Beering, I want to thank you for your efforts in 
preparing the NSB Action Plan. One of the central 
recommendations is the creation of a national council for STEM 
education. How do you respond to concerns that that would just 
create another level of bureaucracy? Is that something, I am 
sure that is something that has been discussed.
    Dr. Beering. Yes, indeed. In fact, of all the responses we 
have had, the very similar comments were received as we heard 
around the table this morning. I want to emphasize what we are 
recommending is a non-federal, independent body that would 
recommend and advise and stimulate and catalyze a national 
effort for content. And it is not a new bureaucratic instrument 
that would substitute itself for existing bodies that have 
those charges.
    So we are not concerned that if the right people with the 
right attitudes, people that particular structure that they 
couldn't be very helpful to individual school boards.
    I would emphasize that there are 14,000 individual school 
boards, so to get consensus among 14,000 school boards is hard 
to imagine.
    I would like to add a university comment since I have the 
floor, and that is that the preparation of teachers is so 
crucial. I think we have all agreed that we want to have very 
well-prepared individuals. At my university of Purdue where I 
have worked now for 25 years, we establish the college of 
education which mandates that each student who opts for a 
specific field major in that field and has a major in the 
participating college. For example, a math teacher has to be a 
math major. That has been achieved with cooperation through the 
School of Science.
    Another thing we are doing that is very unique, we 
guarantee our graduates so if a given school board is unhappy 
with our math teacher graduate, we will be happy to take him 
back and retool them.
    Mr. McNerney. That would be good in the medical profession, 
too. So----
    Dr. Beering. Right.
    Mr. McNerney.--thank you for that testimony, and I would 
say that since it is not a federal, it wouldn't be a federal 
bureaucracy, it wouldn't be paid for by federal taxes, which 
makes it more appealing to us at a certain level.
    Dr. Fennell, I am a mathematician, so I appreciate you 
coming and the work that you have done. I share your desire to 
close the gap, the achievement gap, and do you think that the 
recommendations in the NSB plan will do that, will help close 
the gap, the achievement gap?
    Dr. Fennell. Well, I think that as you look at this thing 
called mathematics achievement in this country, we are 
constantly confronted with mixed messages. A week ago you read 
about the National Assessment of Educational Progress Report 
results where in mathematics we have the highest scores in 
grade four and grade eight that we have had in history and a 
continuing trajectory upward. At the same time we have high 
school students taking more, if you will, higher-level 
mathematics than at any other time.
    At the same time, at precisely the same time, we are not 
nearly as competitive internationally as we would like to be. 
Report from the American College Testing Bureau indicates that 
far too many of the students who go to college are not ready 
for college mathematics, even though they have taken those 
higher-level mathematics courses.
    If there is anything that causes this issue of coherence to 
rear its head, it is this story that I am trying to tell you. I 
mean, we are all over the place. You can't expect a fifth grade 
teacher to be knowledgeable about a hundred and some objectives 
and figure out which ones to emphasize when that child is then 
going to move in two weeks to another state and be placed in 
another curriculum with another teacher from another 
perspective.
    And, again, I think the notion that is coming, Mr. Ehlers, 
I have heard your comments for years about the notion of 
voluntary curriculum that would allow us to consider what is 
really essential, and I believe we can get around those 
essentials. And then allow the kind of independence that we 
would support in school districts that are unique in terms of 
particular environment, particular student clientele, and the 
like.
    Mr. McNerney. Thank you. Dr. Semper, I want to thank you 
for coming out from the Bay Area. I represent part of the Bay 
Area. You have talked about research and learning, what excites 
kids. How do you disseminate that to a more national body of 
teachers?
    Dr. Semper. I can tell both maybe a local story and a 
national story.
    Locally, this summer we had forums on elementary science 
education for the whole Bay Area. We brought together people 
from all the Bay Area districts, from the informal science 
centers of which there are five or six in the Bay Area, from 
the universities, to talk about what would a good elementary 
science program look like. And we had people present what is 
known from research, people present what is known for the 
various curricula that are being adopted, and we had a public 
forum, which had not only the representatives I mentioned, but 
also school board members and parents.
    That kind of local opportunity to talk about education is 
very rare. People don't get a chance to do it in, I would say, 
a more neutral environment. When parents go to school, they are 
sort of in a situation where it is not a necessary comfortable 
environment to talk about the education for their kids.
    So the idea of having local conversations about this I 
think is very powerful, and one could extend that to national 
conversations about the same thing. We don't really talk about 
what we mean about science education from the perspective of 
all of the players, and I think that is the kind of dialogue 
that is absolutely critical.
    I might say what is interesting about this national 
council, of course there are a lot of issues about it, but 
there is actually no place where everyone can get around a 
table together in a fairly neutral way to talk about what we 
know and what we can do about things. It actually doesn't exist 
because most of the forums are driven by one party or another 
for very good reasons. There is no neutral place to do it.
    But I would say the local--let me go back; I think the 
local conversation about science education, about any education 
in a community would be one way to actually move forward on 
this issue collectively.
    Mr. McNerney. Thank you.
    Chairman Baird. Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman. And I thank you for 
calling this hearing, because it is very, very important, and 
it is something that has concerned me and I know concerns you 
as an educator to have a good panel like this to give us their 
background, their information on it, because it is kind of a 
battle going on for minds today and to what thrust we are 
trying to put them as they go to junior college or to a 
university. And how many of them steer clear of science and 
math, and it is a statistical battle that we are really kind of 
losing on engineers.
    You know, STEM is an acronym, and it stands for, you all 
know what it stands for, Scientific, Teachers, engineering, 
Math, and it looks like it has science on one end and math on 
the other, and the science to push the technology, and the 
math, the other end to push engineers. And let me just zero in 
on engineers right now.
    It is my understanding that we are flat, internationally we 
are losing that battle. We may be training more of their 
engineers than we should be, but we, I think seem like we have, 
we graduated 100,000 or something like that, substantially 
fewer than even India does and not even a fourth of what China 
does.
    Now, I don't know what type engineers they are turning out, 
but I think it is important, and I like that acronyms of 
science, technology, engineers, and math a lot better than I 
like the one NAFTA. We had a, you know, we have NAFTA, the A 
should have stood for act, but it doesn't. It stood for 
agreement, and I think they put it on there that way to where 
they wouldn't have to try to get two-thirds of the votes of the 
Senate to confirm some type treaty or something like that.
    Anyway, both the Senate and the House passed NAFTA, and it 
has turned out okay. Of course, most of the foundations in my 
state have been built south of the Rio Grande than they are 
north of the Rio Grande, but that is part of the, I guess, 
overall plan for it.
    But I was interested very much in Mrs. Gayl's testimony, 
and she talked about the lane between teacher quality and 
student achievement, and that is what we have got to tie. We 
have to tie those together someway. Need a partnership of all 
levels of government, and I want to give the Chairman an 
awareness of in Texarkana, Texas, they have a school called 
Texas High, and we also have University of Texas A&M at 
Texarkana there. Those two institutions work closely together, 
and the voters of Bowie County where Texarkana is, voted to 
build a high school built around science and technology, 
science and math. And I don't know if you all area aware of 
that, but it is, I have dedicated and cut the ribbon to it and 
then I thought I was going to be there this last year as 
chairman of science, space, and technology, but I was there as 
the, what am I, Doctor? Ranking Member, not Chairman.
    But, we, I had in mind attending this, being called 
Chairman when I was there, but it didn't happen.
    Anyway, you talked about strengthening teacher preparation 
programs with universities. That is happening right today, and 
there is some real patterns to follow there. It goes on with, 
and I think you pointed out that teachers preparation programs 
ought to be aligned with existing state academic standards, and 
that is, of course, as you pointed out, No Child Left Behind 
requires that.
    I guess the question I want to ask is how would we do that? 
Dr. Semper also alluded to it. I guess, Mrs. Gayl, how do you, 
what do you have in mind when you say that Congress can provide 
valuable incentives to improve teacher quality and spur local 
investment in STEM education?
    This Chairman is doing that. He is pushing it. He has got 
it off and going. Now, what do we do, how do we do to bring 
them closer together? They brought them together up in 
northeast Texas because they have those students that are still 
in high school that are getting credits from Texas A&M in math 
and science. What are your other suggestions on that, Ms. Gayl?
    Ms. Gayl. First of all, I would like to point out that some 
of the incentives provided for in the COMPETES Act in terms of 
scholarships----
    Mr. Hall. Yes.
    Ms. Gayl.--for students and also programs which at the 
university level partner the teaching component and the 
academic component to train teachers, you know, effectively in 
these subjects are very important. What I would say is that 
there needs to be greater coordination among universities and 
the programs in these universities with the local level.
    You point out that this is happening in some areas, but in 
others there is a real resistance among the universities to do 
this.
    But I would also point out as well that, well, and you 
highlight, Congressman Hall, that we are also very supportive 
of having some real accountability for teacher preparation 
programs, and we believe that they should be aligned, and they 
should be teaching what the state academic content standards 
are as opposed to national content guidelines, which is 
recommended by the Board. But it is a similar type of alignment 
that we are looking for.
    Additionally, I just point out, though, that the majority 
of tomorrow's teachers are in today's classrooms, and so what 
we need is a very strong teacher preparation, professional 
development component as well, because it is not enough just to 
address the new teachers that will be being trained, but we 
need to work more effectively with the teachers that we do 
have.
    Mr. Hall. Why the resistance from universities?
    Ms. Gayl. Excuse me? I am sorry.
    Mr. Hall. Why the resistance from universities? Now, I can 
see a resistance from anybody in high school. When I was in 
high school, I liked history and the only part about English I 
liked was when we had English literature. I wasn't too good on 
conjugating the verb to be, and I have never found a way to 
work that into conversation anyway since then.
    Ms. Gayl. You know, I could only really----
    Mr. Hall. And unlike Dr. Ehlers, I was not very much of a 
student. I made four Fs and a D on time, and my dad whipped me 
for spending too much time on one subject. So that is the type 
of student I was. Everything over 70 was wasted. So I am the 
kind of guy that really we need to be reaching out to to get 
them interested in science and mathematics and to fill out the 
word STEM.
    Ms. Gayl. Uh-huh. Well, I think we would certainly be 
supportive of that. I can only, you know, speak from my 
experience, but in trying to work with the university 
community, you know, they are the protectors of free thoughts, 
and they don't like anybody telling them what to do. So that 
could be challenging, but I think one of the ways we might be 
able to bridge this gap, there are some really interesting 
programs for dual enrollment credit that are going on right 
now----
    Mr. Hall. Uh-huh. Yes.
    Ms. Gayl.--between high schools and colleges or also with 
community colleges in particular, and I think that those sort 
of partnerships can help to better coordinate our K through 16 
system.
    Mr. Hall. I think my time is up, but I think Mrs. Traiman 
also mentioned Norm Augustine, who is, I think, one of the 
really great Americans, and I don't know why a guy like him 
can't be one of that bunch running for president right now.
    I yield back my time. I don't know if he is a Republican or 
Democrat. I would like to know that. Like Dr. Ehlers suggested 
that you run for Congress. I would like to know where you live 
before I agree with that.
    I yield back my time, Mr. Chairman. Thank you.
    Chairman Baird. I thank my good friend. His modesty about 
his academic background, some of you know that, what was it, 
Ralph? Eighteen you were flying fighters off aircraft carriers. 
So he says that so we adjust. Exactly. Is today your birthday?
    Mr. Hall. No, not really.
    Chairman Baird. Oh, all right. But he raised a very good 
number of points.
    Dr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman. I wanted to start 
off by thanking Dr. Semper, I know you had thanked the 
government through us for what we had done to help you. I would 
like to thank you for the Exploratorium. I was a grad student, 
got my Master's degree out of Stanford, and I have been to the 
Exploratorium a few times. I love that place.
    So I wanted to, if Dr. Ehlers could preach a sermon up 
there, let me take a minute or two to advertise a little bit. I 
think partnerships are a great idea, and one way to do this in 
a bill that I am working on introducing next week is to put in 
grants that go to partnerships between DOE labs and museums to 
work on projects that help STEM education, and so it is a bill 
for anyone who is here or watching, listening that I am 
planning to introduce this next week, but I think it is a great 
way to encourage partnerships between the energy labs and 
museums to help with STEM ed.
    I think that partnerships between colleges, universities, 
and elementary and secondary schools are also very important. 
Partnerships with corporations out there, industry, I know that 
there is something that is coming up in my district. I have 
Bolken, who has quarries all over the country, is doing a 
program, bringing students from one of my local schools there. 
I think these are types of things that are really neat to 
encourage, and I also want to add that parents I certainly 
think are really probably the most important part of the 
puzzle.
    But finding ways to get everyone to work together for STEM 
education I think is very important. I have a degree in 
engineering before, some say I went to the dark side and got a 
Ph.D. in political science, although I have to say that I use 
as much math in political science, in my research as I ever did 
as an engineer with statistics being so important.
    So I just wanted to throw out there, Dr. Fennell had sort 
of touched on this a little bit. We are trying to make sure 
that all kids in America sort of have the basics that they need 
in STEM ed. How do we, how exactly, what suggestions do you 
have to encourage those who are going to take a particular 
interest, who are going to go on and be an engineer or 
mathematicians, how do you work with them early on sort of to 
encourage that beyond what, your other students who are not 
going to go into those fields? What, how do you do that?
    I want to start with Dr. Fennell and anyone else who wants 
to comment.
    Dr. Fennell. It is a great question, one that I think is 
critical to some of the implications coming from the report. 
That is the issue of highly-qualified teachers, teachers who 
know their mathematics, teachers who are comfortable in their 
classrooms with the culture of their school, and are able to 
frankly see when kids are ready to move on, when kids, some 
kids might need additional support and stay right in that 
classroom. Some kids may need to be accelerated through at a 
rate, but that rate needs to be carefully monitored.
    One of the things that we are seeing in this country, as I 
mentioned before, is movement to higher level of mathematics. 
By that I mean the courses that some of you had when you were 
in high school are offered earlier. And that is wonderful for 
the kids who are ready for that. Let us insure that they have 
that sort of critical foundation, that strong background before 
they are able to do that.
    But the population you are talking about are the next 
engineers, that Mr. Hall referred to--the people that we want 
to turn onto this subject and find a way to keep them invested 
in it. That is not to say, as well that we want, when everybody 
comes out of that education an opportunity to value the 
subject.
    Because of the time of the year it is, fall, and you see 
lots of people playing sports, I was struck by something; I saw 
four times within the last week. That is a whole bunch of 
parents cheering kids on playing soccer. Trust me. They know 
nothing about that game. And so I was thinking, jeez, wouldn't 
it be nice if they had the same sort of zeal and interest about 
something else that they may not know as much about as we would 
like them to be, to know, i.e., mathematics, but encourage 
them, allow them to play for the next team, allow them to 
travel, to be on the travel team and all that that offers and 
or allow them to get the support they need to achieve. I think 
it must happen.
    Ms. Jeffrey. I would like to address your question also. We 
are working much earlier with our students beginning at eighth 
grade and in middle school to really think about their career 
pathways and putting together an eighth grade plan. This really 
establishes with their parents the goals that they hope to have 
for themselves and trying to keep them on track through their 
high school years.
    We also have a large percentage of our juniors and seniors 
in high school attending community colleges courses or dual 
credit courses and linking those aspirations right into their 
post-secondary training, which begins to really attract 
individuals into post-secondary education that may never have 
gone there before.
    We also have an initiative under way, and we haven't talked 
much about this, community college instructors. We really are 
in an effort right now in Iowa to raise the level of expertise 
and the quality of the community college instructors because 
more and more of our high school students are going into 
community colleges rather than into the four-year universities 
for lots of reasons: close to home, not as expensive, and also 
directly accessible to them.
    So those are some of the efforts that we have underway to 
sort of create those seamless transition for students. We also 
have career academies that are occurring between our community 
colleges and our high schools in Iowa, mass science career 
academies where students can actually go and attend classes 
different from their high schools, bioscience academies, pre-
engineering academies. We are working to establish all of those 
kinds of hubs that students can attend beyond their regular 
high school courses. So there are ways to get this done.
    Ms. Traiman. One quick thing on that. Sadly for a lot of 
kids who might get excited, for example, about being an 
engineer, the door is closed very early, and it is because of 
math. Kids can get very excited about science. They can even 
get excited about engineering, but if they don't have success 
in the prerequisite math course, they are not going anywhere in 
engineering or in science, and we really need to put more focus 
on making sure that math doesn't close those doors. Even though 
we are doing better on NAEP in math, we are not doing well 
enough.
    Mr. Lipinski. Thank you.
    Chairman Baird. We will do a brief second round of 
questions if we may.
    Dr. Beering, you have specifically spoken about a non-
federal proposal and yet the response from other panelists is 
grave concern that that might nevertheless become some new 
bureaucratic mechanism.
    I guess my question to the panelists would be, and Ms. 
Traiman, you mentioned that in effective, 14,000 different 
systems is not really a good way to go if you have got a 
national interest in a skilled workforce. And yet you are 
suspect of a federal panel for reasons you obliquely describe 
as political but for some reason don't want to go into 
operationally what that means.
    But if not the approach described by NSB, which is 
particularly specifically not a governmental entity, what 
approach do we use to try to get greater coherence and 
coordination, both vertical and lateral? What alternative 
approach might work better than what NSB with the effort in 
this document has come up with?
    And by the way, other than Bill and Melinda Gates because I 
am familiar with them. They do great work, but there is a fair 
bit of bureaucracy there, and they would still have to get 
14,000 school boards to somehow buy in. So there is no magic 
bullet out there, but what is a better approach?
    Ms. Traiman. One of the things to learn from the past is 
that there have been efforts both governmental and non-
governmental to establish voluntary national standards in the 
subject areas. Some of them produced good products. Some of 
them, you know, went by the wayside because they weren't very 
strong. But one of the serious problems they had is that the 
people who have an interest in each subject area loaded up with 
more than can fit in a single school day. So there is no time 
left for history or English or foreign language or any of the 
other subjects.
    So one concern about this entity is that if it is only 
purview is STEM, it doesn't have to make the critical tradeoffs 
of not just what scientists and people in that field think is 
important, but what in a school year or school day makes sense.
    Chairman Baird. Very good point.
    Ms. Traiman. That is one problem. The political problem is 
this in terms of any federal funding for it right now. Deciding 
what is important for students to know and be able to do brings 
in value judgments, and these will have to be made no matter 
what political entity or whether it is government funded or not 
government funded. But if this starts out federally funded, you 
get situations where Members of Congress may introduce 
amendments saying such and such can't be included in this, you 
know, restricting from the get go. If we approve creation of 
this, it can't address this particular subject in science.
    And that is the concern. It is not Republican and 
Democratic politics.
    Chairman Baird. It is the system of representative 
government itself.
    Ms. Traiman. Right. Which----
    Chairman Baird. I see----
    Ms. Traiman.--the alternative is----
    Chairman Baird. This hearing stands adjourned.
    Ms. Traiman. I guess I am not running for Congress. The 
alternative is actually something that is happening right now. 
There is a voluntary association of states working with an 
organization called Achieve. Its board is half Governors and 
half CEOs, and they are starting at the end point saying when a 
student graduates from high school, what does that student need 
to know and be able to do, they are starting in reading and 
math, to be ready for post-secondary education and the 21st 
century workforce.
    And then from that endpoint they are back mapping what 
would that mean in tenth, eighth, you know, every single grade 
essentially back to kindergarten. It is a long process, and 
each state right now is doing on its own, but they are now, 
they made a decision in about nine of the states to develop a 
common end-of-course Algebra II test. Nobody from the 
government is telling them to do it. They just realize it is 
cost effective to go in that direction. Algebra II in 
Washington State isn't different than Algebra II in Michigan.
    And so one way for the Federal Government would be to 
provide incentives for states to move in that direction rather 
than giving this to a federally-funded entity at this juncture.
    Chairman Baird. Dr. Beering.
    Dr. Beering. As you think about the people who would make 
up this council, it would look a whole lot like this panel, and 
so I would ask my colleagues at the table here what can you 
imagine that would incent the average American family and the 
average American parent to get with it and to have its students 
and its kids get excited about science, math, and the 
international competitiveness? What do we have to do?
    Dr. Fennell. I think the potential of the non-Federal 
Government panel that you suggest has the potential, as you 
say, to get people who are connected with, if you will, the 
informal science education or mathematics education or science 
education and or those other fields to think about what would 
be important. NCTM regularly works with Achieve. We are very 
aware of what, of their work with nine, actually that, I 
believe, has now grown to 13 or 14 states, who are thinking 
about a common Algebra II test.
    However, I would say that not, even though people teach 
this thing called Algebra II in a lot of different ways, there 
is not necessarily a universal definition of what that is. It 
is not as simple as it sounds, but the point is that people are 
willing to come to the table and think about what is important 
for all kids. And that also goes back to Susan's question 
earlier, and that is if, in fact, we see mathematics as a 
roadblock for certain kids as they think about ending, 
considering science-intending careers, then we need to find 
ways to kind of work toward opening that gate for all kids, 
because everybody is in the classroom.
    Mr. Hall. Would the gentleman yield?
    Chairman Baird. Sure. Be happy to.
    Mr. Hall. I might ask you why do they keep teaching all 
that stuff in math? You know, you are in the war, as a Navy 
cadet we had ground school, and I always had a course in 
celestial navigation, and it washed out more pilots than not 
being able to land on a carrier did. Washed out I would say 
two-thirds of the pilots, that one course did.
    So you have, golly, geometry, pure math, trigonometry, 
calculus. Why don't you quit teaching all them hard courses, 
and you would get more of us interested in math?
    Dr. Fennell. Can I respond to that?
    Mr. Hall. I wish you wouldn't. I am just trying to fix some 
way----
    Dr. Fennell. I was going to give some of your language back 
to you.
    Mr. Hall. I am trying to get some way that youngsters get 
interested in math, and we have to, folks like you have to 
entice them some way.
    Yes, please, go ahead.
    Dr. Fennell. Well, it comes back to something I said 
earlier in the testimony, and that is it is really important 
that we get parents and frankly----
    Mr. Hall. Absolutely.
    Dr. Fennell. I mean, there is a popular book going around 
right now called, ``Math Doesn't Suck.'' Well, you know, there 
is something wrong about the message there. Anybody who has 
ever been in a classroom and has had the parent sit down with 
them at the parent-teacher conference and say, you know, I was 
never good in math either, well, that is not the point. The 
point is this subject unlocks doors. It allows Mr. Lipinski to 
use an engineering background in the halls of government. It 
allows people to fly planes, think about big ideas that might 
be situations involving chemistry and all kinds of other 
things.
    Now, my problem is I represent 100,000 teachers around this 
country is to make sure that kids not only get that, but find 
out that it is something that is of value to them. If it going 
to be easy necessarily? No. And by the way, I don't think that 
is a bad thing. There is a lot of things that we do that are 
hard, and you come out the other side of that realizing, you 
know what? That was really good that I did that. And that is 
where we want to be I think with all this.
    Mr. Hall. In soccer I was watching my eight-year-old 
granddaughter play, and the ball went right off to the soccer 
goal there, and I said, kick it in, babe, kick it in, babe, and 
she looked at me with her hand on her hip and her lip out, and 
growled at me, you know, and looked at me. Somebody else kicked 
it out, took her out, and I walked over, and I said, why didn't 
you kick it in? She said, Paw Paw, you don't know anything 
about soccer. It wasn't my time. I took her right out to Wal-
Mart, and we got a soccer ball and a goal. So she needed some 
pure math, I guess.
    Dr. Fennell. That is right.
    Mr. Hall. Thank you. I yield back to time I didn't have.
    Mr. Ehlers. Thank you very much. That is tough to follow, 
but I do want to build on something that Mr. Hall said earlier.
    The--when he referred to China. I take, what I sense here 
and what I have sensed among the American public, they don't 
understand the urgency of this situation. China and India 
decided about 20 years ago that they had to do this for 
economic survival in today's world, and they went, and it is 
easy for China. It is a totalitarian system. You will study 
math. And so they did it, and they have done very well.
    In fact, last year China graduated more English-speaking 
engineers than the United States did. In addition to that, they 
graduated six times as many as we did, whereas 20 years ago 
they graduated half as many.
    There is a real urgency to this, and we can't dither around 
and say, well, you know, we will try this, we will try this, we 
will try that.
    That leads up to a question. I gathered some of you are 
very concerned about the national council, and I also heard a 
number of comments, we don't want the government running this. 
I would simply point out that in the same time many of you 
praised the post-Sputnik activity, National Defense Education 
Act, and so forth, these were government-run programs. You 
can't rule out the government per se.
    Now, I am not a great fan of the government running it, but 
there has to be some cohesive mechanism to pull this altogether 
and get it done. Right now we are getting, some of you 
mentioned community college. Right now community colleges are 
doing more to save us than any other educational entity, 
because they are making up for the deficiencies in the 
elementary and secondary school and serving as a springboard to 
the colleges and university.
    But the question is, you know, if you don't want the 
Federal Government to do it or if you don't like the council, 
what would you like better?
    And Ms. Jeffrey, you are a trained administrator. Would you 
feel better if you were running it? Do you think it would be a 
good idea?
    Ms. Jeffrey. Well, I have to tell you that K-12 educators 
are very interested in doing the right things, and the Chief 
State School Officers have been in this discussion for over a 
year and are very interested in working together to sort of 
create this common framework. But having the people who are 
most impacted by these decisions as part of the process is 
absolutely crucial.
    Mr. Ehlers. Uh-huh.
    Ms. Jeffrey. And that is, I mean, the Chief State School 
Officers are involved in this discussion. They are the 
representative of each of the states who are charged with the 
responsibility for K-12 education in their states, along with 
their governors, and really want to take a very active role in 
this discussion.
    So we would much prefer that bodies that represent us are 
very actively involved I guess is the best way to put it.
    Mr. Ehlers. Won't the school boards feel the same way?
    Ms. Jeffrey. Well, I am sure they do.
    Mr. Ehlers. My real question is how do we coordinate? We 
have no desire to impose this. I don't think the Congress or 
the Federal Government wants to impose it, but there has to be 
an action mechanism and a guidance mechanism. And the urgency 
has to be imparted to the people.
    I just wrote an article which appeared Monday in my 
hometown paper, and I understand the Hill picked it up and put, 
has it on their blog if you want to read it. Its title is 
``Where is Sputnik When We Need It.'' Because we really need 
another Sputnik now and to provide the national energizing and 
collaboration.
    I may be interested in any other ideas you might have that 
would help us.
    Ms. Gayl. I would just point out that at the National 
School Boards Association we are not opposed to a federal 
council in this regard. We think it could be particularly 
helpful in coordinating the various programs that exist 
throughout the Federal Government, and we think it can provide 
some very real great tools and resources. And we are also 
supportive of the idea of content guidelines.
    What we are concerned about is this being perceived as a 
sort of top-down approach that would be telling school 
districts and states what to do, and so I think we need to, you 
know, tread carefully in this area, because in order for a 
movement like this to really take place, it needs to start with 
the parents, with the local communities, and they have to buy 
into the plan.
    And I think that there are some real ways that we can do 
this to incentify folks at the local level to do that, but we 
certainly wouldn't want to see a bureaucracy or entity crated 
out there that wouldn't report to the Federal Government, that 
wouldn't report to the locals, that wouldn't report to the 
states, that would be perceived as telling people in their 
communities what they needed to learn and to know.
    Mr. Ehlers. Well, I don't think any of us want a tell-down 
system, but we do need a top, and the real question is is how 
can we pull this together? How can we energize it? How can we 
get it moving?
    And you know, what we really need, and this goes along with 
Mr. Hall's comment about why the pilots flunked out, they had 
to learn celestial navigation. Today we use GPSs and so forth. 
But what you really need is a top and a guidance mechanism.
    Now, you don't need a force mechanism, but you do need a 
guidance mechanism. So whatever you can do to help us put this 
together we would appreciate.
    Thank you. I yield back.
    Chairman Baird. I think we have done the inverse of No 
Child Left Behind.
    Mr. Hall. Mr. Chairman, I think I have exhausted my time, 
but I just tell this group here how fortunate we are to have 
people like you that will give your time, that have prepared 
yourself to bring you to thing point, and we are very fortunate 
to have Dr. Ehlers on this committee, knowledgeable, with 
background that is unbelievable, and Dr. Baird of academia that 
is above and beyond.
    So you have some good things going for you up here, and we 
really do, I personally appreciate each of you giving your time 
it took to get here, the time to prepare, and the time to go 
home.
    I yield back my time.
    Chairman Baird. Very well said, Mr. Hall. I thank the 
panelists. This is such an important issue, and we could go on 
at great length. The sense clearly is that there is an absolute 
commitment, and some great people doing some really great work, 
and one of the paradoxes is here we are with this fantastic 
country that is acknowledged as a world leader, really sound 
people like we see before us today, and yet when it translates 
down to our average child out there in the field, they are not 
necessarily getting the level of achievement that we want.
    And what we are trying to do with this series of hearings 
that we are having on this committee is tap into the expertise 
and knowledge and real-world experience of folks such as 
yourself and try to figure out where best to go.
    And I thank all of you. I thank NSB for the great work and 
all the people who participated in this presentation. But it is 
so valuable to have further insights into the pros and cons of 
what has been proposed. This is not by any means the end of 
this. As you saw with the America COMPETES Act and the 
leadership of Chairman Gordon, the Chairman of the overall 
Science Committee, and the leadership of Nancy Palosi is 
absolutely committed to improving our education opportunities 
for our kids.
    We intend to actually operationalize some further measures 
that will actually continue to move this forward. My personal 
commitment, and I believe that of all of our colleagues is that 
every child born in America will have an opportunity to have 
the top quality science education, science and math education 
regardless of where they are born, with quality teachers, with 
curricula that makes sense, and with career paths that are 
linked in some ways to the curricula and teaching that they 
receive along the way.
    And we believe that there is an important federal role 
because it is of our national interest to accomplish this. It 
is not enough for us as a representative of the United States 
Congress to say, well, there are 14,000 school districts, some 
are going to get it right, some are going to get it abysmally 
bad, and if your kid happens to have the good luck to be in 
those districts where they are getting right, terrific for you, 
and too bad for the other kids and too bad for our country that 
we have lost those kids' contributions.
    So finding a way to balance that is our goal, and your 
insights today have helped us move towards that. I thank our 
panelists, and with that we, you just heard that the vote has 
been called, so that is timely. And with that this hearing 
stands adjourned with the gratitude of the Committee.
    [Whereupon, at 11:50 a.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Steven C. Beering, Chairman, National Science Board

Questions submitted by Representative Vernon J. Ehlers

Q1.  We heard testimony from NSF not too long ago (following the 
release of the ACC report) which indicated the agency believes that the 
subcommittee on education under the NSTC is sufficient to carry on the 
work of the ACC. Your report recommends that the subcommittee of the 
NSTC be elevated to a full committee. Can you explain how this would 
change the power, perception, or function of the committee?

A1. The Board feels that the critical importance of STEM education to 
the Nation merits attention at a full committee level. At a full 
committee level coordination of STEM education would receive more 
direct attention from the heads of agencies, an increased level of 
staff support, and a more impactful position for coordination of 
federal STEM activities within the Administration.

Q2.  Most of your recommendations rely on the National Council to take 
a lead in activities. Who do you anticipate providing the necessary 
sustained leadership?

A2. In order for the National Council for STEM Education to be 
effective, its non-federal members will need to assume joint 
responsibility for the Council's success. The Board recommends that the 
initial co-chairs of the Council be a State governor and a chief State 
school officer. Strong leadership by the initial Council co-chairs and 
a significant commitment by the Council staff will be essential to the 
success of this Council. Our Action Plan has requested a seat for the 
Board on the Council to demonstrate our support of and long-term 
commitment to this effort.

Q3a.  Independent of legislation, what are the NSB's next steps?

A3a. The Board is committed to sustained support of this Action Plan 
and will continue to provide advice to Congress and other stakeholders 
as requested. In its role as the oversight and policy-setting body for 
the National Science Foundation (NSF), the Board will oversee NSF's 
implementation of our guidance to it in the Action Plan, beginning with 
a presentation by NSF on this subject at the Board's December 2007 
meeting.

Q3b.  Do you plan to revisit/revise the idea of a National Council?

A3b. No. The Board feels its recommendation and general outline for a 
National Council for STEM Education are of sufficient detail to allow 
Congress to charter such a Council without interfering with 
Congressional discretion to structure the Council as it deems best.

Q4a.  Is there any entity on which to model the independent council 
that provides comprehensive coordination?

A4a. Currently there is no national coordinating body for STEM 
education; however, a few potentially instructive models do exist.
    First, the National Council for STEM Education could be viewed as a 
national version of a State P-16 (or P-20) council, which many states 
have in place. In some states, P-16 councils have been effective policy 
mechanisms for coordinating among a state's early-childhood, K-12, and 
higher education systems and among local business and industry, school 
systems, and the community at large--in effect drawing all stakeholders 
together. Effective State P-16 councils, for example, allow local 
education agencies to coordinate their high school curriculum with 
entrance requirements for a State's institutions of higher education 
and with what employers expect high school graduates to know.
    Second, at the national level, Achieve, Inc., a non-profit 
organization led by State governors and business leaders, is an example 
of how states can work together voluntarily on K-12 education issues. 
Although not STEM focused and not inclusive of all STEM stakeholders, 
Achieve has been successful in providing a structure for a substantial 
number of states to voluntarily adopt common K-8 mathematics standards 
and, through the American Diploma Project Network, to increase high 
school graduation standards.
    Finally, the Transportation Research Board (TRB) of the National 
Research Council could be an instructive model from another field. The 
TRB has a mission to ``provide leadership in transportation innovation 
and progress through research and information exchange, conducted 
within a setting that is objective, interdisciplinary, and multi-
modal.'' It provides ``opportunities for information exchange on 
current transportation research and practice; management of cooperative 
research and other research programs; analyses of national 
transportation policy issues and guidance on federal and other research 
programs; and publications and access to research information from 
around the world.'' The members of the TRB represent many stakeholder 
groups, and the TRB is funded by contributions by all stakeholders.

Q4b.  How does this body acquire the respect of the classroom teacher 
and partnership of the local school district?

A4b. The Board's recommendation is that the National Council would have 
a practicing classroom teacher and representative of a local school 
board as permanent members of the Council, ensuring that these 
perspectives are always present on the Council.

Q4c.  Would this entity really be the first of its kind?

A4c. Yes.

Q5.  It seems that all of the witnesses agree that better STEM 
coordination is needed. Please share what you think a successful model 
for improved coordination in STEM would look like, and/or how a single 
body responsible for STEM coordination could be supported by all 
stakeholders.

A5. In a truly coordinated system of STEM education, a student would 
have the opportunity to master, in a systematic way, key concepts in 
STEM learning. In addition, STEM teachers would be thoroughly prepared 
during their pre-service training with both the content knowledge and 
pedagogical skills needed to be effective teachers and kept up-to-date 
in that content knowledge with continual, relevant professional 
development. In a coordinated system, the K-12 system, the higher 
education system, and business and industry would all work together to 
ensure that students are provided with high-quality and up-to-date STEM 
content. In addition, parents and the informal STEM education community 
would be heavily involved in encouraging rigorous STEM teaching and 
learning.

Questions submitted by Representative Ralph M. Hall

Q1.  In your testimony, you state that ``the Federal Government must do 
a better job of coordinating its own STEM education activities.'' How 
well is this currently being done within NSF? How does the EHR 
directorate interact and coordinate with the STEM education activities 
within the RRA directorate divisions?

A1. In its guidance to NSF in the Action Plan, the Board states that 
the EHR and R&RA Directorates should be doing a better job of 
coordinating their STEM education efforts than is currently being done. 
The Board will be following up with the NSF leadership on this issue 
beginning with its request for a presentation by NSF to the Board at 
the Board's December 2007 meeting. As outlined in a January 31, 2007 
letter from me to Congressman Holt (who asked that the Board examine 
this issue), the Board has begun a significant effort in the past year 
to review the evaluation mechanisms for and results of NSF's EHR 
programs so that these findings may be used to enhance EHR programs 
within the EHR Directorate, across the R&RA Directorates, and in the 
context of the Nation.

Q2.  You mention that some public comments expressed concern that 
National Laboratories weren't given an adequate role in the process. 
Should the National Labs be involved at all, and if so, what should 
their role be?

A2. In response to concerns from the National Labs, the Board added to 
the final version of the Action Plan an explicit statement that the 
National Labs be included with other relevant federal agencies on the 
Office of Science and Technology Policy's NSTC Committee on STEM 
Education to allow them to coordinate their efforts within the Federal 
Government. The Board also added a statement in the final Action Plan 
noting that the National Labs ``. . .provide content expertise that 
could be effectively utilized to improve STEM teacher preparation.'' 
This content expertise could also be utilized for professional 
development of teachers already in the classroom.

Q3.  With regard to the concern that not enough is being done to get 
colleges of arts, sciences and engineering to collaborate with colleges 
of education in preparing STEM teachers, do you think that Congress has 
adequately addressed that concern in the America COMPETES Act?

A3. Although the Board is supportive of many of the measures taken in 
the America COMPETES Act and congratulates the President and Congress 
on enacting this legislation, it remains concerned that without a 
coordinating mechanism, the scattered programs outlined in the 
legislation will not be adequate to stimulate a significant 
transformation of the Nation's STEM education system.
    In the case of the programs for baccalaureate degrees in STEM with 
concurrent teacher certification at the Department of Education (Sec. 
6113) and the Robert Noyce Teacher Scholarship Program at NSF (Sec. 
7030), the America COMPETES language does attempt to promote 
collaboration between colleges of education and colleges of arts, 
sciences, and engineering. Although this is a good step, encouraging 
such collaboration is an issue that needs to be addressed not only 
within individual teacher preparation programs at institutions of 
higher education, but across the system. A national coordinating body 
such as recommended by the Board would be extremely useful in ensuring 
that lessons learned from these two programs are disseminated and 
inform the development of other programs.
                   Answers to Post-Hearing Questions
Responses by Judy A. Jeffrey, Director, Iowa Department of Education, 
        Representing the Council of Chief State School Officers

Questions submitted by Representative Vernon J. Ehlers

Q1.  Sometimes it can seem that states want the Federal Government to 
provide funds with ``no strings attached.'' What are the reasonable 
guidelines to attach to federal STEM funding? With many states 
undertaking STEM education efforts, is there any alignment from state-
to-state with these initiatives? How do we get beyond each state doing 
its own thing?

A1. States believe and understand that guidelines must be attached to 
any Federal Government funding, as states attach guidelines to money 
they allocate to districts and schools. States embrace accountability 
as an important tool in education reform and believe STEM funding 
should be tied to outcomes for students. Reasonable guidelines would 
not prescribe simply one test that would be the measure for success, 
but allow for multiple ways to measure learning and progress that are 
valid and reliable. States do not believe that the Federal Government 
should attach provisions to funding that dictate a narrow way to 
accomplish the goal of improving STEM education since a one-size-fits-
all system will not serve the needs of all students and school 
circumstances. States need the flexibility to continually innovate to 
meet local needs.
    States are working to create more aligned STEM education systems. 
Thirty states are part of the American Diploma Project Network to align 
K-12 curriculum, standards, assessments, and accountability policies, 
including those for STEM education, with the demands of college and 
work. Thirteen states are also working with Achieve, Inc. to develop 
specifications for a common end-of-course exam in Algebra II. States 
also coordinate their STEM activities through grants they receive from 
organizations such as the National Governors Association and the 
National Math Science Initiative. All of these opportunities involve 
State information-sharing and collaboration to produce the best STEM 
education programs and systems possible. Creating more opportunities 
for states to collaborate, while giving states the room to adapt to 
meet their individual contexts, can help continue to bolster alignment 
on STEM education between states.

Q2.  Going along with a National Council concept, how could states be 
more involved (beyond those described in the report) in the development 
of content guidelines?

A2. CCSSO supports voluntary, shared standards among states. States are 
also interested in developing shared standards in other areas besides 
math and science and would prefer that all of the voluntary standards 
be created in a manner that facilitates joint dialogue and a 
comprehensive approach. Having separate groups develop voluntary 
standards could lead to fragmentation whereby 21st century skills are 
not embedded within the academic subject areas.

Q3.  Can you expand on your statement that the Council could determine 
``what the intent of STEM education'' is?

A3. We must have a larger discussion on how to embed mathematics, 
science, engineering, and technology skills across the curriculum to 
create meaningful, deep learning experiences that will replicate real-
world STEM experiences. Creating stand-alone content guidelines that do 
not address how to teach and integrate STEM education will not 
transform STEM teaching to the extent that is needed. It is crucial 
that students, regardless of the career pathway they choose, be 
afforded learning experiences through real-world, relevant learning 
activities.

Q4.  Are your concerns about the Council solvable through changing the 
way it is chartered, led and funded? Do you identify with the unmet 
need that the Board is trying to address through the Council? If so, do 
you have an alternative vehicle to suggest?

A4. States identify with the unmet need the Council is trying to 
address of providing better coordination between STEM education 
programs. In particular, as I mentioned in my testimony, I see the most 
critical roles of the Council as increasing coordination among federal 
agencies and programs and supporting and communicating more STEM 
education research that is useful to educators and policy-makers.

Q5.  Is there any entity on which to model the independent council that 
provides comprehensive coordination? How does this body acquire the 
respect of the classroom teacher and partnership of the local school 
district? Would this entity really be the first of its kind?

A5. I do not know of any.

Q6.  It seems that all of the witnesses agree that better STEM 
coordination is needed. Please share what you think a successful model 
for improved coordination in STEM would look like, and/or how a single 
body responsible for STEM coordination could be supported by 
stakeholders.

A6. The body should be composed of respected members in the field who 
are empowered to oversee and establish accountability provisions for 
the coordination of efforts across the Federal Government. It would 
even better serve the states if the body would reach beyond 
coordination to a process whereby duplication would be eliminated and 
efforts would be coordinated and integrated to meet the needs of 
states.

Questions submitted by Representative Ralph M. Hall

Q1.  You mention in your testimony that you would prefer that limited 
funding be invested in improving the quality of teaching versus 
assessments. How would you go about improving the quality of teaching 
with limited resources?

A1. Limited federal funding will never be able to reach all teachers in 
a state. However, we have found that the dollars set aside for Reading 
First have served our state very well. The federal funds initiated the 
conversation on improving children's early literacy skills by providing 
start-up costs and requiring evaluation of results. Thus, the state 
developed a plan, worked with a few schools, modeled what should be 
done to change teaching practices, monitored implementation, and 
tracked student data. This process in Iowa was scaled-up to include 
more schools, through individuals that were trained in the original 
design with State and local funds. STEM teaching could be improved 
through a similar approach of providing targeted funds to improve 
teaching.
    On-going, in-depth, on the job professional development will hold 
the greatest promise of improving teaching and learning in STEM 
education.

Q2.  You express some skepticism about a national council creating more 
bureaucracy and that federal funding may be better spent helping states 
implement innovative ideas. Please expand upon Iowa's high school 
reform efforts to create ``teaching approaches that develop authentic 
intellectual work on the part of the students and teaching strategies 
that engage students in relevant and meaningful tasks and high 
levels.'' Is this program currently receiving federal funding, and if 
so, through what program?

A2. The Iowa Department of Education has engaged in a professional 
development effort to enhance the instruction that high school content-
area teachers use in their classrooms. The professional development 
effort provides training and ongoing technical assistance to teams of 
teachers from high schools in Authentic Intellectual Work developed by 
Fred Newmann (Emeritus Professor of Curriculum and Instruction, 
University of Wisconsin-Madison and former director of the National 
Center on Organization and Restructuring Schools) and colleagues. This 
instructional model sets standards for teaching academic subjects that:

        <bullet>  maximize expectations of intellectual rigor for all 
        students

        <bullet>  increase student interest in academic work

        <bullet>  support teachers taking time to teach for in-depth 
        understanding rather than superficial coverage of material

        <bullet>  provide a common conception of student intellectual 
        work that promotes professional community among teachers of 
        different grade levels and subjects, and,

        <bullet>  most importantly, equip students to address the 
        complex intellectual challenges of work, civic participation, 
        and managing personal affairs in the contemporary world.

    The instructional model focuses on student construction of 
knowledge through disciplined inquiry to produce discourse, products, 
and performance that have value beyond high school. At present, there 
are teams (administrators, teachers, and regional support personnel) 
from nine Iowa high schools participating in this endeavor. The goal is 
provide access to the professional development to all high schools in 
Iowa by developing a cadre of experienced in-state trainers using 
qualified participants from the 2007-08 effort and from the 2008-09 
effort, which is planned to engage another 30-40 high schools.
    This model is being supported through a direct State appropriation.
                   Answers to Post-Hearing Questions
Responses by Francis (Skip) Fennell, President, National Council of 
        Teachers of Mathematics

Questions submitted by Representative Vernon J. Ehlers

Q1.  Is there any entity on which to model the independent council that 
provides comprehensive coordination? How does this body acquire the 
respect of the classroom teacher and partnership of the local school 
district? Would this entity really be the first of its kind?

A1. I think such an independent council could resemble but have a 
different focus from the Mathematics and Science Education Board (MSEB) 
which operates within the National Academies of Science. I think the 
Conference Board for the Mathematical Sciences (CBMS), which represents 
ALL mathematics societies/organizations in this country in the area of 
mathematics and includes several mathematics education organizations 
(National Council of Teachers of Mathematics (NCTM), National Council 
of Supervisors of Mathematics (NCSM), Association of State Supervisors 
of Mathematics (ASSM), Association of Mathematics Teacher Educators 
(AMTE), and others) could serve as a resource for mathematics 
participation for such an independent council. I would think that a 
similar ``umbrella'' ``Conference Board'' for the sciences, 
engineering, and technology probably exists and would provide sources 
for potential council members. I believe the proposed council should 
involve educators at every level, this would include, from my field, 
mathematics teachers, mathematics supervisors, mathematicians, and 
mathematics educators. In short, with proper balance and a plan for 
meaningful involvement the independent council could work--and, is 
needed.

Q2.  It seems that all of the witnesses agree that better STEM 
coordination is needed. Please share what you think a successful model 
for improved coordination in STEM would look like, and/or how a single 
body responsible for STEM coordination could be supported by all 
stakeholders.

A2. I can envision a Coordinating Council, with rotating leadership, 
that would include representatives from the major science, technology, 
engineering, and mathematics organizations in this country. I would 
ensure (bias here is noted) that teacher organizations (NCTM, NSTA) are 
well-represented on the Council. As noted, above, I think a sort of 
``expanded and re-focused MSEB'' (see above) could provide a template 
for organization. I think ``layers'' of responsibility would allow for 
inclusion by all stakeholders from STEM, with designated ``sub-
committees'' with each particular areas of focus (e.g., Pre-K-12 STEM 
education, teacher education, etc.). Hope this provides at least a 
``seed'' for thinking about council organization.
                   Answers to Post-Hearing Questions
Responses by Chrisanne L. Gayl, Director of Federal Programs, National 
        School Boards Association

Questions submitted by Representative Vernon J. Ehlers

Q1.  As I understand it, the goal of national content guidelines are to 
help teachers know what their kids need to learn and when. Do you have 
any input on the struggles of how we get beyond an over-packed 
curricula and the mobility of our students? Do you think that some 
coherence could be useful to the students?

A1. Certainly in today's education system, choices need to be made 
about what students should know and be able to do, and when. Given the 
plethora of content that exists, the limited school day, and a host of 
other factors, it is necessary to set priorities and make tough 
choices. The real issue is not that we must choose, but rather who is 
responsible for doing it. NSBA believes such decisions are best left to 
State and local authorities who have the constitutional authority over 
education.
    NSBA believes efforts to align State standards and ensure greater 
coherence among subjects and grade levels would be useful for students 
as well as practitioners. An independent council could help to 
coordinate efforts between states so that they can learn from one 
another and find commonalities that may exist. However, we caution 
against a one-size-fits-all national model or curriculum that could 
stifle innovation and creativity and dismiss the geographic, cultural, 
and economic differences in the United States. NSBA believes that 
diversity among students' educational experiences play an important 
role in fostering a range of talents and multiple levels of knowledge 
that are important in a democratic society. Furthermore, we are mindful 
that most mobility among students occurs within states, and do not see 
this is a compelling reason to adopt a uniform system of education.
    Local school board members value states' efforts to convene content 
specialists, representatives of higher education, and practitioners to 
lend their expertise and make recommendations about content guidelines 
and benchmarks. NSBA recognizes that in the areas of math and science, 
in particular, there may be a greater level of agreement on content 
than in other disciplines, such as in history where there may be moral 
and/or ethical concerns about the interpretation of events.

Q2.  Is there any entity on which to model the independent council that 
provides comprehensive coordination? How does this body acquire the 
respect of the classroom teacher and partnership of the local school 
district? Would this entity really be the first of its kind?

A2. In establishing an independent council, we can learn from past 
coordinating efforts as to what is important and useful. In order to 
acquire the respect of teachers and work with local school districts, 
NSBA believes that a national coordinating body must:

        <bullet>  Recognize that education is primarily a State and 
        local function for which the federal role should be one of 
        support and assistance rather than direct regulation.

        <bullet>  Involve the participation of local governing 
        officials and practitioners that are responsible for the day-
        to-day education of students.

        <bullet>  Have substantial knowledge and understanding of our 
        system of government as well as the impact of and interplay 
        between local, State, and federal policies and programs.

        <bullet>  Support, promote, and advocate on behalf of public 
        education at the national, State, and local levels.

        <bullet>  Encourage and promote collaborative efforts among all 
        levels of government, federal agencies, and the Nation's 
        educational organizations and support groups.

        <bullet>  Recognize the cost of all federal education programs 
        on local school districts and the costs associated with 
        implementing federal mandates.

        <bullet>  Neither mandate or coerce states into adopting 
        specific standards or assessments; or penalizes states that do 
        not wish to adopt specific standards or assessments.

    While this list is not exhaustive, it does lay the groundwork from 
which to build on what would be necessary in the creation of any 
independent body that would be tasked with comprehensive coordination 
of our education system.

Q3.  It seems that all of the witnesses agree that better STEM 
coordination is needed. Please share what you think a successful model 
for improved coordination in STEM would look like, and/or how a single 
body responsible for STEM coordination could be supported by all 
stakeholders.

A3. NSBA supports a model that would enhance the coordination of STEM 
programs and enable opportunities that will enrich teaching and 
learning in these fields. Such an entity must include all relevant 
stakeholders and value the traditional role of states and local 
government in education. In addition, NSBA stresses that this model 
include substantial representation from outside of academia that are 
responsible for the day-to-day education of students and implementation 
of programs.
    NSBA believes that the primary functions of this entity should be: 
the coordination of various STEM programs and initiatives throughout 
the Federal Government and among states, dissemination of best 
practices in the field, development of tools and resources that 
educators can use to improve instruction, and creation of a high-level 
public information campaign about the importance of STEM education. In 
NSBA's view, the role of this body would be largely informative and not 
involve direct policy-making.
    The Federal Government is in the unique position to assemble the 
profound knowledge base that exists within these disciplines and to 
disseminate information on a national scale that can help to strengthen 
STEM education throughout communities. Additionally, Congress can help 
to provide valuable incentives and resources, outside of the creation 
of a coordinating entity, that can improve teacher quality and spur 
local investment in STEM (See answer to next question.)

Question submitted by Representative Ralph M. Hall

Q1.  Please describe what you have in mind when you say that ``Congress 
can provide valuable incentives to improve teacher quality and spur 
local investment'' in STEM education.

A1. NSBA supports an array of incentives to recruit and retain teachers 
in high-need STEM subjects including performance-based pay, hiring 
bonuses, alternative certification programs, and student loan 
forgiveness. The Federal Government can help to encourage the creation 
and expansion of these strategies through pilot programs and funding to 
support states and school districts that wish to implement these 
policies.
    In addition, NSBA agrees that Congress should help strengthen 
teacher preparation programs within universities to ensure appropriate 
alignment with academic standards and foster greater accountability 
among these programs. We suggest that teacher preparation programs be 
aligned with existing State academic standards, which all states are 
required to have in place under No Child Left Behind. More attention 
should also be given to developing and bringing-to-scale high-quality 
professional development programs for existing teachers. These programs 
can play an important role in updating teachers' knowledge and skills 
in their subject area and have been shown to have a positive impact on 
teacher retention.
    Lastly, Congress can help school districts to leverage local 
resources by helping to provide funding for up-to-date laboratory 
equipment and modern classrooms, which are necessary to successfully 
implement a relevant STEM program. These facilities are essential for 
students to be able to experiment, create, and get a hands-on feeling 
for what the world of work is like in these fields. This scale of 
modernization, however, typically requires a large infusion of capital 
and often local resources are not enough to ensure that classrooms are 
appropriately outfitted for high-level STEM instruction.
                   Answers to Post-Hearing Questions
Responses by Dr. Robert J. Semper, Executive Associate Director, The 
        Exploratorium, Representing the Association of Science and 
        Technology Centers

Questions submitted by Representative Vernon J. Ehlers

Q1.  Is there any entity on which to model the independent council that 
provides comprehensive coordination? How does this body acquire the 
respect of the classroom teacher and partnership of the local school 
district? Would this entity really be the first of its kind?

A1. One possible model would be the existing state PK-20 or P-20 
education councils. Made up of a diversity of education stakeholder, 
some of these councils have succeeded in bringing coherence to the 
diverse educational system. They gain respect by the careful inclusion 
of all of the relevant stakeholders in a situation where no single 
special interest can dominate the discussion. As far as I know there 
has been no equivalent version of a STEM focused P-20 council at the 
federal level.

Q2.  It seems that all of the witnesses agree that better STEM 
coordination is needed. Please share what you think a successful model 
for improved coordination in STEM would look like, and/or how a single 
body responsible for STEM coordination could be supported by all 
stakeholders.

A2. A successful model would imply the creation of mechanisms for the 
various parties to find their proper and desired role in the 
conversation. At the federal level, a coordinated approach would 
require the various federal agencies to develop a coordinated work plan 
or roadmap for research and implementation. One successful example from 
the world of science and engineering that I know the subcommittee is 
familiar with is the coordination function that the National Nanoscale 
Initiative provides. The NNI has been very successful in creating a 
roadmap for the country for the development of nanotechnology research 
and implementation where the different parts of the research enterprise 
can find a home. The creation of this roadmap took both a vision and a 
significant series of discussions with all of the stakeholders to 
create a place for everyone. This lead to significant support by all of 
the stakeholders because the vision made sense as a whole. Of course 
doing this on an issue like education with its federal, State and local 
components would be more difficult. Nevertheless I think that this kind 
of engineering approach to the problem might be needed.
                   Answers to Post-Hearing Questions
Responses by Susan L. Traiman, Director, Education and Workforce 
        Policy, Business Roundtable

Questions submitted by Representative Vernon J. Ehlers

Q1.  Your testimony shows you have ``been down the road before'' on 
trying to align STEM standards. What do you think would need to change 
for national content guidelines to be beneficial instead of counter-
productive? Is there anything within our grasp, or do you see this as 
unattainable in the next decade?

A1. In 1996, to help break the deadlock over national education 
standards, America's governors and business leaders created Achieve, a 
voluntary effort to raise State academic content standards, better 
align those standards with the demands of the modern workplace and 
post-secondary education. Working through Achieve, nine states are 
collaborating on a common end-of-course test for Algebra 2. Thirty 
states are working together through Achieve to align their individual 
State high school graduation requirements with the expectations of 
colleges and universities for entering student proficiency in math and 
English and the expectations of employers for entering worker 
proficiency in math and English.
    There is increased interest from Governors and chief State school 
officers in working with Achieve using this bottoms-up standards-
setting approach to reach of common core of standards. I can envision 
this process moving forward over the course of the next decade, 
especially as states' interest in bench-marking standards with the 
world's top-performing countries increases. As a result, there is a 
path toward a common core of voluntary national standards in the 
majority, if not all, states, with some variation among states added to 
the core. From the vantage point of the business community, in a global 
economy, it doesn't make sense for states to have different standards. 
We just don't want to see federal action inadvertently get in the way 
of the real progress that is being made in the states today. And, yes, 
we have sent that happen before as my October testimony before the 
Subcommittee indicated.

Q2.  Is there any entity on which to model the independent council that 
provides comprehensive coordination? How does this body acquire the 
respect of the classroom teacher and partnership of the local school 
district? Would this entity really be the first of its kind?

A2. Business Roundtable does not have a position on the National 
Science Board's recommendation to establish a STEM education council 
but, as I testified before your Subcommittee, it is my personal view 
that establishing an independent coordinating body with no budget or 
oversight authority likely would not be effective. Your question about 
the need for buy-in on the part of stakeholders, particularly teachers 
and local school administrations, to ensure success goes to the heart 
of the matter. State P-16 and P-20 STEM councils are attempting to do 
this, with great variation in their effectiveness.
    I can't speak definitively as to whether the STEM education 
council, as proposed by the National Science Board, would be the first 
of its kind. I am not aware of any such prior entity but I cannot say 
for sure.

Q3.  It seems that all of the witnesses agree that better STEM 
coordination is needed. Please share what you think a successful model 
for improved coordination in STEM would look like, and/or how a single 
body responsible for STEM coordination could be supported by all 
stakeholders.

A3. In my view, the greatest need for coordination is knowledge 
transfer about what is working and what is not working to improve STEM 
education across the U.S. Achieve and other organizations are in a 
position to facilitate voluntary coordination/communication among 
participating states. They have realized some success but progress is 
slow. The good news is that the attention focused on STEM education by 
Congress has had an impact. States and districts are looking for best 
practices. Perhaps the best federal role at this stage would be to 
support research on the different models to determine effectiveness as 
well as using technology to more rapidly advance best practices.

                                   

</pre></body></html>
